<html>
<title> - PROTECTING OUR SHORES FROM OIL SPILLS</title>
<body><pre>[Senate Hearing 110-1216]
[From the U.S. Government Publishing Office]



                                                       S. Hrg. 110-1216

 
PROTECTING OUR SHORES FROM OIL SPILLS--OPERATIONAL PROCEDURES AND SHIP 
                                DESIGNS

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON SURFACE TRANSPORTATION
                  AND MERCHANT MARINE INFRASTRUCTURE,
                          SAFETY, AND SECURITY

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 4, 2008

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



                  U.S. GOVERNMENT PRINTING OFFICE
80-089                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6106110e210214121509040d114f020e0c4f">[email&#160;protected]</a>  



       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                   DANIEL K. INOUYE, Hawaii, Chairman
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska, Vice Chairman
    Virginia                         JOHN McCAIN, Arizona
JOHN F. KERRY, Massachusetts         KAY BAILEY HUTCHISON, Texas
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
BARBARA BOXER, California            GORDON H. SMITH, Oregon
BILL NELSON, Florida                 JOHN ENSIGN, Nevada
MARIA CANTWELL, Washington           JOHN E. SUNUNU, New Hampshire
FRANK R. LAUTENBERG, New Jersey      JIM DeMINT, South Carolina
MARK PRYOR, Arkansas                 DAVID VITTER, Louisiana
THOMAS R. CARPER, Delaware           JOHN THUNE, South Dakota
CLAIRE McCASKILL, Missouri           ROGER F. WICKER, Mississippi
AMY KLOBUCHAR, Minnesota
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
Lila Harper Helms, Democratic Deputy Staff Director and Policy Director
   Christine D. Kurth, Republican Staff Director and General Counsel
                  Paul Nagle, Republican Chief Counsel
                                 ------                                

      SUBCOMMITTEE ON SURFACE TRANSPORTATION AND MERCHANT MARINE 
                  INFRASTRUCTURE, SAFETY, AND SECURITY

FRANK R. LAUTENBERG, New Jersey,     GORDON H. SMITH, Oregon, Ranking
    Chairman                         JOHN McCAIN, Arizona
JOHN D. ROCKEFELLER IV, West         KAY BAILEY HUTCHISON, Texas
    Virginia                         OLYMPIA J. SNOWE, Maine
JOHN F. KERRY, Massachusetts         JIM DeMINT, South Carolina
BYRON L. DORGAN, North Dakota        DAVID VITTER, Louisiana
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
MARK PRYOR, Arkansas                 ROGER F. WICKER, Mississippi
THOMAS R. CARPER, Delaware
CLAIRE McCASKILL, Missouri
AMY KLOBUCHAR, Minnesota


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 4, 2008....................................     1
Statement of Senator Klobuchar...................................    48
Statement of Senator Lautenberg..................................     1
Statement of Senator Smith.......................................    13
Statement of Senator Stevens.....................................    12
    Prepared statement...........................................    12

                               Witnesses

Allen, Admiral Thad W., Commandant, U.S. Coast Guard, Department 
  of Homeland Security...........................................     3
    Prepared statement...........................................     6
Kirchner, Paul G., Executive Director, American Pilots' 
  Association....................................................    19
    Prepared statement...........................................    20
Page, Captain Edward, Executive Director, Marine Exchange of 
  Alaska.........................................................    26
    Prepared statement...........................................    29
Tikka, Dr. Kirsi, Vice President, Global Technology and Business 
  Development, American Bureau of Shipping (ABS).................    32
    Prepared statement...........................................    33

                                Appendix

Response to written question submitted by Hon. Barbara Boxer to 
  Admiral Thad W. Allen..........................................    51


                       PROTECTING OUR SHORES FROM
                   OIL SPILLS--OPERATIONAL PROCEDURES
                            AND SHIP DESIGNS

                              ----------                              


                         TUESDAY, MARCH 4, 2008

                               U.S. Senate,
         Subcommittee on Surface Transportation and
            Merchant Marine Infrastructure, Safety, and Security,  
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:30 p.m. in 
room SR-253, Russell Senate Office Building, Hon. Frank R. 
Lautenberg, Chairman of the Subcommittee, presiding.

        OPENING STATEMENT OF HON. FRANK R. LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg. I will call the Committee to order, and 
start the proceedings.
    The lack of attendance has nothing to do with a lack of 
interest in the subject, I can assure you. It has something to 
do with a little bit of over-scheduling--not here, but 
elsewhere. So, thank all of you for being here, and I am 
particularly pleased to see the Commandant of the Coast Guard 
here, Commandant Allen.
    You've done a very good job, as have your people. We're 
very proud of the Coast Guard. We consider them somewhat 
magical, because they keep managing to do more with less. And I 
don't know how we can continue to expect that, by assigning you 
more responsibilities. And, you name it--you've got it.
    Whether it's pollution patrol, whether it's refugees, 
whether it's navigation assistance, whether it's ship registry, 
everything imaginable that could happen, or that should happen 
at sea, is taken care of by the Coast Guard. And we're 
particularly proud of the organization, but we're also proud of 
our Cape May Station, where we train people and get a chance to 
visit with a degree of frequency.
    I want to welcome everyone to today's hearing as we work to 
better protect our shores, our wildlife, our families, and our 
economy from deadly and toxic effects of oil spills. This week 
is a particularly good time for this hearing, because right now 
the Supreme Court is considering a final appeal by Exxon, over 
its catastrophic oil spill in Valdez, Alaska.
    And I was up there, early on, I was Chairman of the 
Appropriations Subcommittee then that dealt with Coast Guard, 
and I managed to thumb a ride up to the site, and saw the EXXON 
VALDEZ floundering in the water, and saw the kind of magic 
color scheme that went out, looking harmless. But you could see 
that the birds and the marine life, and everything else was 
terribly affected.
    Sometimes we get questions about the quality of service we 
get from government employees. And I'll tell you something--I 
saw those islands, and I was up not more than 2 or 3 days after 
the ship ran aground, and we had people from Fish and Wildlife, 
and other departments up there, cleaning up the ducks and the 
seals and the other wildlife.
    So, Exxon did pay some part of its obligation, compensation 
for lost wages, and damages. But there's a case just heard by 
the Supreme Court and not a decision made yet, as a result of 
an assessment of $5 billion in punitive damages that were 
awarded. Exxon has refused to step up to its citizenship 
obligation. Exxon kept fighting the payment, and kept getting 
it reduced and so forth--that $5 billion got down to $2 
billion. It's the only thing that hasn't gone up in the last 5 
years. And it forced me to look at their earnings. Five years 
ago Exxon made $21 billion. In the last year, they made $40 
billion--that's pretty good growth, I would say.
    And so, 19 years after the spill, Exxon is still fighting a 
damage award that would cost them about 3 weeks worth of 
profit.
    And while they continue to fight, the environment continues 
to suffer. The Alaska coastline, as well as the local economy, 
is still reeling from the oil spill, that material that 
remains.
    In the aftermath of the Valdez disaster, Congress passed 
the Oil Pollution Act of 1990--one of the most powerful oil 
spill laws on the books. And as a Senator from a coastal State, 
I was proud to be an original co-sponsor of that law, which 
required mandatory response plans, double-hulling of tanker 
ships, and provided a fair way to ensure that spills were 
cleaned up.
    But, in the year 2004, a single-hull oil tanker spilled 
more than 260,000 gallons of crude oil into the Delaware River, 
along the New Jersey/Pennsylvania border. That spill devastated 
our environment, and shut down some of the busiest ports in the 
country.
    So, 2 years ago, I worked with this committee to update the 
Oil Pollution Act by nearly tripling the liability limits which 
polluters must pay for spills from single-hull tankers, and 
doubling liabilities for non-tank vessels.
    But while the number of oil spills from tankers has 
declined, spills continue to occur from fuel tanks of cargo and 
fishing vessels. Last year, for instance, San Francisco Bay was 
deluged with 53,000 barrels of fuel oil from a ship that wasn't 
an oil tanker. That fuel was there to operate the ship. And we 
had that kind of a spill.
    These, and other recent spills, make it clear that we've 
got to do more to protect our shores. Fuel tanks on container 
ships can hold up to 4 million gallons of oil--which is more 
than some oil tankers carry as cargo.
    The international community has already put in place better 
ship design requirements, and it's time for the United States 
to catch up.
    Now, we need to use the Coast Guard's vessel tracking 
assistance services to help prevent collisions and improve our 
response to oil spills. We need to look at how the Coast Guard 
licenses mariners, including what medical standards are used to 
determine their fitness to operate these vessels, and we need 
to increase Federal oil spill liability limits for ships that 
we know have higher risks of causing devastating spills.
    So, today I'm introducing legislation that will address 
these needs, because the environment--and our economy--depend 
on our work to prevent another major catastrophe.
    So, I look forward to working with my colleagues on this, 
and other legislation to better protect our shores.
    And with that, Commandant Allen, we welcome you here, and 
look forward to your testimony and I ask you to please proceed.

        STATEMENT OF ADMIRAL THAD W. ALLEN, COMMANDANT, 
       U.S. COAST GUARD, DEPARTMENT OF HOMELAND SECURITY

    Admiral Allen. Good afternoon, Chairman Lautenberg, and 
thank you for your remarks. I will reinforce some of your 
points in my opening statement.
    I have full testimony submitted for the record and I have a 
brief opening statement if that is okay, sir.
    The risks carried by fuel aboard vessels--whether as cargo 
or as propulsion--have been recognized for some time as a risk. 
The recent COSCO BUSAN spill in San Francisco underscores the 
need to identify the causes and prevent such spills, while 
focusing on vessel manning, design, rulemaking capacity, and 
Vessel Traffic Services.
    Let me be clear at the onset, sir, there's no better 
approach to this problem than prevention. Once oil has been 
discharged into the environment, there are no winners, and the 
best any response can do is mitigate the impact.
    The San Francisco spill highlighted the threat from non-
tank vessels, such as the COSCO BUSAN. I'd like to provide the 
Committee with some current data framing the size of the fleet, 
and the threat we are discussing.
    Based on data through February 2008, the Coast Guard has 
received and reviewed response plans for more than 14,700 non-
tank vessels on call in U.S. ports. That is up from 
approximately 13,000, when I testified in December 2007.
    Of this number, more than 8,300 are classified as ocean-
going freight vessels, such as the COSCO BUSAN. The majority of 
these vessels have a fuel capacity of between ten and twenty 
thousand barrels. Each barrel contains approximately 42 
gallons, so the range is 420,000 to 840,000 gallons.
    However, there are 360 vessels that carry for than 50,000 
barrels, and there are 100 that carry more than 70,000 barrels, 
sir. And to correct one statement you made--you may not be 
aware of this, sir--the highest-capacity freight ship listed in 
our records is 173,000 barrels, or 7.3 million gallons. The 
COSCO BUSAN had a capacity of 52,000 barrels, or 2.2 million 
gallons.
    To address the threat posed by non-tank vessels, there have 
been several international and domestic steps taken, and more 
planned. Under the provisions of MARPOL Annex I, double hulls, 
or other protective arrangements, double hulls or other 
protective arrangements for fuel tanks are required for ship 
contracts awarded after August 2007, or for ships delivered 
after August 2010. These provisions also require ship-board oil 
emergency plans.
    Domestically, as you have stated, we have gone further than 
the international standards. The Coast Guard Maritime 
Transportation Act of 2004 and 2006, established a response 
plan requirement for non-tank vessels greater than 400 gross 
tons.
    The legislation created an August 2005 deadline for the 
implementation of these plans. The Coast Guard issued interim 
guidance in February 2005, providing interim authorization for 
non-tank vessels to operate under Coast Guard-reviewed response 
plans, pending development of implementing regulations.
    We are currently developing temporary non-tank vessel 
response plan enforcement measures to be used until the final 
non-tank rule can be published. We anticipate the final rule 
will be complete in 2010, but these temporary measures will 
enforce the non-tank vessel response requirements on the 
highest risk non-tank vessels, including those over 1,600 gross 
tons, under our existing authority of the Ports and Waterways 
Safety Act.
    It involved prescreening of vessel arrival data, and 
examination of response plans during Coast Guard inspections. 
Vessels not found in compliance will be subject to Captain of 
Port control measures.
    This enforcement regime marks a change in policy from 
previous Coast Guard guidance, which did not impose enforcement 
mechanisms. We will provide advanced notice to the marine 
industry through the Federal Register, before implementation.
    The appropriate temporary enforcement measures for vessels 
between 400 and 1,600 gross tons is also under development and 
will be shaped by the range of risk posed from offshore supply 
vessels, towing vessels, private yachts, fishing vessels, and 
others falling below this tonnage category.
    As I noted earlier, plans for over 14,700 vessels had been 
received and reviewed by the Coast Guard. By comparison, we've 
reviewed response plans for 8,319 tank vessels. Clearly, the 
number and increasing fuel capacity of large freight ships 
justify a review of all aspects of spill prevention, and 
response.
    Another significant area is a limit of liability of a 
responsible party under the provisions of the Oil Pollution Act 
of 1990. For a number of years, the limits of liability remain 
as established at the time OP 90 was implemented. As you noted, 
they were significantly increased under Coast Guard Maritime 
Transportation Act of 2006.
    The Coast Guard published a notice of proposed rulemaking 
to amend Certificate of Financial Responsibility regulations to 
reflect those increased liability limits, and it working to 
publish a final rule as early as Fall 2008. The Coast Guard 
Authorization Act of 2006 also required an annual report to 
Congress on the adequacy of oil spill liability limits, 
including impacts on the Oil Spill Liability Trust Fund. Our 
reports have concluded increasing liability limits per incident 
for single-hull tank ships, tank barges and non-tank vessels 
greater than 300 gross tons would result in a more balanced 
cost share between responsible parties, and the Trust Fund.
    The COSCO BUSAN casualty also caused us to look closer at 
our roles and responsibilities regarding our VTS systems. They 
serve as an important component of a comprehensive waterway 
system. The VTS is designed primarily as an information service 
that improves safety by advising pilots and vessel masters of 
significant events, conditions or other vessel movements or 
operations. Through the Ports and Waterway Safety Act, we have 
adequate authority to provide these advisories or direct 
traffic, when needed.
    We're also taking important steps to improve Coast Guard 
rulemaking. As you know, the current backlog of rules to be 
developed by the Coast Guard is in excess of 90. On 9/11/2001, 
it was approximately 50. Despite tremendous effort by our Coast 
Guard personnel, we are not gaining ground, and many important 
rules have been cued, awaiting required resources. This 
situation is unsatisfactory to me, and it should be 
unsatisfactory to you, sir.
    As I said, I am taking important and aggressive measures to 
improve. I have tasked the Coast Guard Maritime Safety and 
Security Council to assess the current situation, and provide 
me options to reduce this backlog.
    I have also ordered they meet, at least quarterly, and 
provide early visibility on significant projects. Under their 
oversight, I've also chartered a rulemaking review and reform 
project, to conduct a top to bottom review of our rulemaking 
processes, and facilitate increases in capacity that will be 
assisted by organizational consultants.
    Additionally, we have streamlined our internal business 
processes, and targeted efforts to the most critical projects. 
I'm confident these measures will deliver the improvements that 
we require and you should expect.
    Finally, I am grateful for Congressional support for 
rulemaking. During the Fiscal Year 2008 Appropriations process, 
we will receive $3.1 million for 31 personnel to increase our 
regulatory capacity.
    The Fiscal Year 2009 President's budget seeks an additional 
increase of $2.6 million for contractor support to expedite 
high-priority rulemaking projects. I would appreciate your 
support for this request, as it provides enhanced capacity to 
address our backlog.
    Mr. Chairman, I'd like to close with a comment regarding 
the COSCO BUSAN incident Specific Performance Review. As I 
testified in December, I have initiated a Performance Review 
which involved third parties. Phase I of the report was 
released on January 28, 2008. It addresses the first 2 weeks of 
the response, and provided 110 lessons learned, and 128 
recommendations to improve preparedness and response in the San 
Francisco Bay community.
    The recommendations follow the several broad categories, 
and include emphasis on the area, contingency planning process, 
the use of exercises and drills and incorporation of local 
response capabilities and information sharing throughout the 
incident command structure.
    The second phase of the report will address the remainder 
of the response, and is due to me on May 7, 2008. I will 
provide the results of my plans in the way ahead to the 
Congress.
    Beyond the performance review, we are partnering closely 
with the Department of Homeland Security, the Inspector General 
and their audit of the response.
    I thank you for the opportunity to testify today, and I 
will be happy to take your questions, sir.
    [The prepared statement of Admiral Allen follows:]

       Prepared Statement of Admiral Thad W. Allen, Commandant, 
           U.S. Coast Guard, Department of Homeland Security

    Good afternoon, Mr. Chairman and distinguished Members of the 
Committee. It is a pleasure to appear before you today to discuss 
issues related to commercial vessel manning, design standards, and 
Vessel Traffic Services (VTS). The Coast Guard is committed to 
protection of the environment and safety of the maritime pubic through 
ensuring vessels are properly manned, designed and operated on U.S. 
waterways.

Vessel Manning
International Standards
    The International Convention for the Safety of Life at Sea (SOLAS) 
Chapter V, Regulation 14 requires that vessels be sufficiently and 
effectively manned, and requires Administrations (i.e., flag states) to 
issue minimum safe manning documents to vessels they register. The Safe 
Manning Certificate establishes and documents manning requirements for 
vessels. Administrations must also ensure that mariners serving on 
their ships meet competency requirements established in the 
International Convention on Standards of Training, Certification and 
Watchkeeping for Seafarers, 1978, as amended (STCW) Code. The 
International Regulations for Prevention of Collisions at Sea (COLREGS 
or Rules of the Road) requires that ships maintain an effective lookout 
while operating in restricted waters or conditions of reduced 
visibility. Although not specific, additional international guidelines 
have been created which establish principles in keeping a navigational 
watch, lookout requirements, watch arrangements, procedures for taking 
over a watch, performing a watch and watch keeping under varying 
conditions in different areas which are all intended to promote safe 
navigation.
    Safe manning is a function of the number of qualified and 
experienced seafarers necessary for the safety of the vessel, and its 
crew passengers, and cargo. The Principles of Safe Manning adopted by 
United Nations' International Maritime Organization (IMO) resolution 
A.890 (21) as Amended by resolution A.955(23) notes the ability of 
seafarers to meet the requirements also depends upon conditions 
relating to training, hours of work and rest, health, and occupational 
safety. This Resolution provides recommendations to aid in determining 
the minimum manning for safe navigation, including situations involving 
transiting in restricted waters/ports.

Coast Guard Enforcement
    Vessel manning is as important to overall vessel safety as vessel 
condition and safety management. The Safety Management Regulations (33 
CFR Part 96) provide general requirements for vessel safety management 
systems. Companies must include instructions for the safe operation of 
vessels into their safety management system including proper manning 
and operational procedures for transits in restricted waters and in 
conditions of restricted visibility.
    The safety management system aboard a vessels are validated during 
both inspection and record audits conducted by the cognizant 
Administration, ultimately resulting in the issuance of the 
international Safety Management Certificate. Upon receiving an Advanced 
Notice of Arrival for a vessel, the Coast Guard reviews vessel records 
to ensure the Safety Management Certificate and other required 
documents are valid. A vessel without a valid Safety Management 
Certificate is detained prior to entry into port and the vessel's 
Administration is then required to ascertain the vessel safety 
management system and issue a valid certificate in compliance with 
SOLAS requirements.
    While in port, the Coast Guard verifies STCW compliance during Port 
State Control (PSC) examinations on foreign vessels including checks of 
the following: minimum safe manning, crew certificates and 
endorsements, watch arrangements and schedules, new crewmember 
familiarization procedures, and the overall safety management system.
    The Coast Guard assesses whether a vessel is in apparent compliance 
with the requirements of the Conventions to ensure that the crew can 
respond to emergency situations and perform the vital functions 
necessary for safe operation and prevention or mitigation of pollution. 
The STCW Code contains the specifications for the minimum international 
standard of competence for seafarers. The United States has adopted 
STCW requirements and 46 Subchapter B, Parts 10-16 contain equivalent 
requirements for U.S. mariners.
    Coast Guard Port State Control Officers (PSCOs) gauge crew 
competency by observing fire and abandon ship drills and other 
shipboard operations. If the PSCO observes inadequate skills during 
drills or other operations, indicating a lack of crew competency in 
essential shipboard operations, a detention of the vessel is warranted 
until the safety deficiency can be resolved.
    Crew competency and the number of crewmembers are major aspects of 
vessel manning. Adequate manning allows for appropriate crew rest 
periods and STCW provides specific rest period requirements; however, 
vessels may deviate from the required rest periods for emergencies, 
drills or other overriding operational conditions (for example 
restricted visibility) which may require more people on watch. At times 
mariners will not have ample rest prior to their arrival and/or 
departure from the U.S. due to enhanced navigational watches inbound/
outbound port, and quick turn-around for unloading and offloading 
cargo. If a PSCO observes potential fatigue issues with crew, 
corrective actions will be taken before allowing the vessel to get 
underway.

Vessel Design Standards
    Vessel oil pollution prevention standards have evolved over the 
years. The primary focus has been on tank vessels, which have 
historically posed the greatest risk for oil pollution. As a result, 
tank vessel hull design standards have progressed from dedicated clean 
ballast tanks, to segregated ballast tanks, to complete double hull 
protection of the cargo tank block following the Exxon Valdez casualty 
in 1989. U.S. leadership at IMO has been instrumental over the years in 
upgrading international oil pollution prevention standards, and there 
is generally close alignment between U.S. and IMO tank vessel design 
standards.
    Until recently, protective measures for the location of fuel tanks 
were generally considered unwarranted by both the United States and 
IMO. The Oil Spill Pollution Act of 1990s Double Hull Interim Final 
Rule preamble indicated that fuel oil represented only a relatively 
small risk to the environment compared with cargo oil and therefore 
double hulling of fuel tanks was unnecessary. This perception began to 
change through the 1990s as a number of prominent fuel spills in U.S. 
waters (Enif--1995; Kure--1997; and New Carissa--1999) raised awareness 
of the risk of oil spills from fuel tanks. Then with European 
environmental concerns very high after the Erika casualty off France in 
1999, the IMO decided to establish strong new requirements for the 
protection of fuel tanks which culminated in the 2006 adoption of 
MARPOL Annex I regulation 12A--Oil Fuel Tank Protection.

New Fuel Tank Protection Requirements for Oceangoing Freight Ships
    Nontank vessels are vulnerable to spills caused by groundings, 
collisions, and allisions due to the location and capacity of onboard 
fuel tanks. Fuel is generally carried in tanks located in the bottom or 
side of the vessels without double hull protection.
    Current U.S. requirements regarding the location of fuel tanks are 
located in 33 CFR Subchapter O (Pollution) and essentially prohibit oil 
from being carried in a forepeak tank or any tank forward of the 
collision bulkhead. There is no restriction on locating fuel tanks 
adjacent to the outer hull plating.
    However, oceangoing freight vessels on international voyages are 
subject to the International Convention for the Prevention of Pollution 
from Ships otherwise referred to as MARPOL 73/78. New MARPOL Annex I 
regulation 12A--Oil Fuel Tank Protection has entered into force and 
applies to all ships with an aggregate oil fuel capacity of 600 cubic 
meters (this equates to approximately 158,500 gallons) and above with a 
building contract after July 31, 2007, or which are delivered after 
July 31, 2010. The regulation provides two options for the protection 
of fuel tanks with volumes greater than 30 cubic meters (approximately 
7,925 gals):

        1. a prescriptive double hull requirement; or

        2. a probabilistic accidental oil outflow performance 
        requirement.

    Vessels meeting the first option must have fuel tanks with double 
bottoms and double sides, which provide separation from the outer skin 
of the vessel ranging from 0.76 to 2.0 meters.
    Vessels falling under the second option must meet an accidental oil 
fuel outflow performance requirement, which provides the equivalent of 
double-hull protection while allowing for some fuel tank arrangement 
flexibility. The performance requirement considers historical casualty 
statistics to determine optimal fuel tank arrangements in order to 
minimize the risk of oil fuel outflow from hull damage.
    The Coast Guard published a Notice of Policy in the August 27, 2007 
Federal Register regarding our compliance policy, pending a rulemaking 
project to harmonize existing U.S. regulations with the new MARPOL 
regulation. The policy states that vessels (U.S. or foreign) required 
by MARPOL to hold an International Oil Pollution Prevention (IOPP) 
certificate must meet regulation 12A. U.S. vessels not required to hold 
an IOPP Certificate need not comply with regulation 12A. A vessel is 
required to hold an IOPP certificate if it is over 400 gross tons (over 
150 gross tons for oil tankers) and engages on international voyages to 
other MARPOL signatory countries.

Rulemaking
    The Coast Guard is undertaking substantial steps to improve our 
rulemaking capability. These improvements will allow the Coast Guard 
move forward expeditiously with rulemaking projects that will enhance 
our core missions of marine safety, security, and stewardship.

  <bullet> Marine Safety and Security Council: The Marine Safety and 
        Security Council (MSSC) is the Coast Guard's senior rulemaking 
        oversight body. We have revamped the MSSC membership to better 
        reflect our current organizational structure and to provide 
        more responsive, cross-cutting oversight. The MSSC will meet at 
        least quarterly to oversee the rulemaking development system 
        and progress of the top priority projects. This will ensure 
        early visibility on significant rulemaking issues, and best 
        utilization of Coast Guard resources to serve the public as 
        efficiently and effectively as possible.

  <bullet> Rulemaking Review and Reform Project (RRRP): A Rulemaking 
        Review and Reform Project is underway to conduct a top to 
        bottom review of our rulemaking processes and to facilitate 
        increases in capacity. The RRRP is assisted by a group of 
        Organizational Performance Consultants who will assist in 
        identifying, defining and improving our rulemaking processes. 
        The RRRP is assessing the current state of rulemaking to 
        determine root causes of rulemaking delays and identify 
        specific opportunities for improvement.

Other Environmental Initiatives
    The Coast Guard is working domestically and in conjunction with the 
IMO to improve environmental standards and compliance. Several 
concurrent initiatives are underway and progress is being made on 
several fronts:

  <bullet> Reduction of air emissions from ships (MARPOL Annex VI). The 
        Coast Guard, Environmental Protection Agency (EPA), and 
        maritime representatives from several countries have been 
        actively engaged with the IMO to establish new and more 
        stringent international standards addressing air emissions from 
        ships. Air pollution from ships already significantly 
        contributes to the air quality problems in the U.S. and 
        emissions are expected to quadruple by 2030. The U.S. 
        Government has played a leading role in shaping the current 
        standards, but our influence could be compromised if we fail to 
        pass legislation and submit our instrument of ratification to 
        MARPOL Annex VI before final IMO negotiations conclude at the 
        end of March 2008. Your Committee presently has the 
        implementing legislation for consideration, in the form of H.R. 
        802, which passed the House last year under suspension of the 
        rules. I personally request that you give urgent consideration 
        to H.R. 802, which the Administration fully supports, in order 
        to allow the United States to succeed in our efforts to enhance 
        the air emissions standards for ships both domestically and 
        throughout the world.

  <bullet> Nontank Vessel Response Plans (NTVRP). The Coast Guard and 
        Maritime Transportation Act of 2004 required the preparation 
        and submission of oil spill response plans for nontank vessels. 
        The Coast Guard is working to publish regulations on the 
        development and submission of Nontank Vessel Response Plans 
        (NTVRP) plans. In the interim, the Coast Guard published 
        Navigation and Inspection Circular (NVIC) 01-05, which assists 
        nontank vessel owners and operators with the development of 
        interim NTVRPs. To date, the Coast Guard has reviewed interim 
        NTVRPs covering over 14,700 foreign and domestic nontank 
        vessels. However, vessels are not required to follow the 
        guidance contained in NVIC 01-05. The Coast Guard is currently 
        revising to the interim enforcement strategy which would 
        clarify the requirements for all covered vessels to have 
        prepared and submitted a NTVRP prior to operating in U.S. 
        waters. This enforcement will be limited to those portions of 
        the authorizing statute that are self-executing.

  <bullet> Ballast Water Discharge Management Regulation. The Coast 
        Guard is engaged in a rulemaking that would set a performance 
        standard for the quality of ballast water discharged in U.S. 
        waters. We believe such a standard is the most effective way to 
        approve Ballast Water Management Systems (BWMS) that are 
        environmentally protective and scientifically sound. This 
        rulemaking would also establish rigorous testing requirements 
        BWMS would undergo to ensure they work under shipboard 
        conditions. The Coast Guard is committed to approving BWMS that 
        will prevent aquatic nuisance species introductions into U.S. 
        waters.

Vessel Traffic Services Cuts
Ports and Waterways Safety Act (PWSA)
    As authorized by the Ports and Waterways Safety Act (PWSA), the 
Coast Guard established VTS in certain ports and waterway areas to 
maximize the safe and efficient use of waterways by preventing marine 
accidents and their associated environmental damage. In order to carry 
out these duties, VTSs use a variety of communications, surveillance 
equipment, and operating systems to collect, process, and disseminate 
navigation safety information and exercise regulatory authority when 
necessary. VTSs also use their capabilities to support other Coast 
Guard mission areas such as maritime security, aids to navigation, 
search and rescue (SAR), and law enforcement.

VTS Operations
    VTSs operate as an active part of a comprehensive waterways 
management system, which includes passive measures such as the COLREGS 
or Rules of the Road, aids to navigation such as buoys and lights, 
other regulations, and vessel routing schemes. In areas determined to 
present a high level of navigational risk, VTSs act in conjunction with 
these passive measures and the skill of professional mariners to ensure 
safe navigation. VTS procedures are developed in conjunction with 
maritime community stakeholders and in alignment with international 
guidance from the IMO and the International Association of Marine Aids 
to Navigation and Lighthouse Authorities (IALA). This includes a formal 
training program for VTS watchstanders consisting of national 
certification, local qualification, and continuing professional 
development.
    The PWSA grants the Coast Guard extensive authority to establish 
VTS and control or supervise vessel traffic. The Coast Guard may 
require vessels to participate in VTS and carry certain navigation 
safety equipment. The PWSA authorizes the Coast Guard to control vessel 
traffic in hazardous circumstances and to direct vessel operations if 
they violate regulations or it is necessary in the interest of safety. 
We have issued regulations implementing these authorities and 
delegating authority to individual VTSs.
    VTS procedures have been developed to carry out these authorities 
in alignment with international guidelines and recommendations. In 
general, a VTS will monitor their area of responsibility to build a 
traffic image and, having analyzed the data collected, inform mariners 
of pertinent information to assist them in navigational decisionmaking. 
In certain circumstances the VTS will recommend a course of action, and 
in the event of a violation of regulations or in the interest of 
safety, a VTS may direct a vessel to take certain action. Per current 
doctrine, procedures, and training, orders to vessels are issued in an 
``outcome-based'' manner; in which the vessel is ordered to do 
something (e.g., do not proceed past a point) but not told specifically 
how to do it (e.g., specific speed or course to steer). However, the 
Coast Guard has the authority to issue more specific orders to vessels, 
and in very rare circumstances has exercised it. Under international 
guidelines, VTSs generally act as a navigational aid to the mariner, 
but the ultimate responsibility for safe navigation of the ship remains 
with the master of the vessel. VTSs assist in vessel navigation 
decision-making, not ship handling, particularly when a vessel is 
facing an ``in extremis'' situation. When direction is provided, the 
VTS refrains from issuing ship handling instructions because it would 
create an extremely hazardous situation to direct emergency vessel 
maneuvers from a remote location.
    We are committed to the marine safety mission and the safety and 
security of the maritime public.
    During my State of the Coast Guard address, I emphasized the Coast 
Guard's longstanding commitment to honoring and serving professional 
mariners. Moreover, my plan to enhance the Coast Guard's marine safety 
program is a hallmark of this commitment. We have already requested 
significant increases to our marine inspector work force; planned 
Centers of Excellence that will match our skills with those of the 
maritime industry in certain regions; and made other program 
enhancements intended to improve customer service.
    On February 8, I met with representatives of the maritime industry 
at Coast Guard Headquarters for the first of many Marine Industry 
Forums. I am initiating these forums to facilitate discussion and 
dialogue on a broad range of marine safety matters. I recently traveled 
to maritime industry events in Houston and Cleveland, and will continue 
to hold these meetings as we move forward so that the Coast Guard's 
planned enhancements are both effective and responsive to the needs of 
industry and professional mariners.
    Thank you for the opportunity to testify. I look forward to your 
questions.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Senator Lautenberg. Thank you very much, Commandant.
    Senator I'm joined by Senator Stevens, the Co-Chairman of 
the full Committee, as well as Senator Gordon Smith from 
Oregon. And both of these Senators feel, as I do, about the 
Coast Guard. We admire it, respect it, and want to support it. 
Senator Stevens has a statement he wanted to put in the record.
    Senator Stevens?

                STATEMENT OF HON. TED STEVENS, 
                    U.S. SENATOR FROM ALASKA

    Senator Stevens. Thank you very much, Admiral, I'm sorry to 
be late. I'm helping manage the bill on the floor, and I did 
want to pay my respects to you, and ask that my statement 
appear in the record.
    I have some questions I'd like to submit to you for the 
record.
    [The prepared statement of Senator Stevens follows:]

    Prepared Statement of Hon. Ted Stevens, U.S. Senator from Alaska
    I have seen firsthand the devastation that can be caused by oil 
spills. Just one significant spill in a sensitive area of our coastline 
can be extremely destructive to the ocean, environment and those who 
depend on its resources.
    In 1989, the EXXON VALDEZ spilled 11 million gallons of crude oil 
in Prince William Sound. The fishermen and communities devastated by 
this spill have yet to fully recover from its impacts. It was just last 
week, nearly 18 years after the spill, that the Supreme Court finally 
heard oral arguments on whether those injured would be able to recover 
punitive damages.
    The legal process has been so drawn out that nearly 8,000 of the 
original 30,000 plaintiffs have since passed away.
    After the EXXON VALDEZ oil spill, Congress passed the Oil Pollution 
Act of 1990. This act has done much to reduce the risk of oil spills 
and improve our response efforts. But I remain concerned about the 
adequacy of our prevention resources. We need to make sure the Coast 
Guard has the tools it needs to help vessels avoid accidents that may 
cause an oil spill.
    Initiatives like the vessel tracking system used in areas of Alaska 
need to be expanded so we can track all the cargo ships and oil tankers 
sailing in our waters. As Captain Ed Page will testify, these tracking 
systems show, in real time, the location of possible response vessels 
and give us the greatest chance to prevent or contain an oil spill and 
protect our valuable coastlines.
    I thank Captain Ed Page for making the long journey from Alaska to 
be here today and I look forward to hearing from all of our witnesses.

    Admiral Allen. Yes, sir.
    Senator Stevens. But, I would say to you, I think I have 
before, that I flew into the EXXON VALDEZ spill with Admiral 
Yost, your predecessor. I don't think I've ever seen anything 
like that in my life, neither one of us. We were both stunned 
by what we saw.
    And the aftermath of that was really a development that no 
one expected, because when we flew over the vessel, the tanker, 
it was on the island, it was up out of the water, really, 
because it was low tide. And it had, I recall, one of the 
segments of the vessel had been punctured by the island as it 
struck the island. I think four-fifths of the oil was still on 
board.
    The management decisions that were made, right then, led to 
this spill being the worst spill in the history of the world.
    Now, I just throw that out to you, because I do think that 
what we really have to have, and you've got more things now in 
Valdez than anybody realizes in terms of be able to track those 
tankers down.
    But we need to be assured that there's training of the 
people to operate those systems to make sure that we don't have 
another catastrophe of that kind. We also need to have some 
people be trained about the actions that can be taken to 
protect the environment.
    At that time, I called my old friend Senator Bellman, Henry 
Bellman of Oklahoma, who had been a Senator for two terms, went 
back and he was Governor. And I said, ``Henry, what would you 
do if you had something like this in your backyard?'' And he 
said, ``I'd call the Army and tell them to drop Napalm on it, 
burn it.''
    I went ashore, and made that suggestion to the crowd there, 
both officials from government and from the industry, and they 
all said, ``You can't do that, think of that, there'd be a 
Clean Air violation.'' And I'll never forget that if I live to 
be 100. They were afraid of the Clean Air violation, rather 
than protecting the waters of Prince Williams Sound.
    Now, I think that we have to have people trained to make 
judgments and to understand the circumstances, and while 
alternatives are available to prevent the catastrophe that we 
subsequently saw.
    So, I hope you'll answer my questions, and I look forward 
to visiting with you again, and maybe you might come up and do 
a little marine research with me in the Prince William Sound.
    Admiral Allen. Thank you, sir.
    Senator Stevens. Thank you.
    Senator Lautenberg. Thanks very much, Senator Stevens.
    Senator Stevens. You can come, too.
    Senator Lautenberg. I'd like it, I love Alaska. You know, 
we all take pride in our coastlines.
    Senator Smith, Co-Chairman of the Subcommittee.

              STATEMENT OF HON. GORDON H. SMITH, 
                    U.S. SENATOR FROM OREGON

    Senator Smith. Thank you, Mr. Chairman.
    Admiral it's great to have you here, and I thank you for 
your testimony, most of which I was about to hear.
    We've talked in my office, and also about the important 
role that I believe the Coast Guard plays for the state of 
Oregon, and I want to join in the comments of others, how much 
I appreciate the Coast Guard and your very significant presence 
in Oregon.
    And let me just simply say that the Columbia River is 
really a lifeline for Oregon, for both shallow and deep draft 
vessels and ports--whether you're talking wheat or cattle, or 
timber or high-tech products they move in and out of Port of 
Portland in a tremendous volume. It's a growth engine for our 
whole state.
    Hearing Senator Stevens speak of EXXON VALDEZ, I'm reminded 
that it isn't just oil tankers that pose a potential 
difficulty. In 1999, a ship by the name of the New Carissa was 
grounded off the Oregon Coast, spilling roughly 70,000 gallons 
of fuel into Oregon waters, and obviously it had a devastating 
impact on wildlife and oyster beds and recreation--all of these 
things were lost. And so, I do hope that you're focused, as 
well, on vehicles that are not necessarily transporting oil, 
because it's very, very important.
    But, the main point I want to make, in light of Federal 
legislation that is being proposed here, legislation to which I 
remain open, but I want to specifically talk about the pilotage 
issue, which has gained a great deal of attention in the wake 
of the spill that occurred, I guess it was in November, in San 
Francisco Bay.
    I think it's very important to remember that these pilotage 
program are often--in my case, in the case of Oregon--governed 
by State regulations. And this allows states to structure a 
system that is suited to the particular needs and circumstances 
of their own waters. Oregon's a perfect example of that.
    Since 1846, 13 years before Oregon was officially admitted 
to the Union, the Oregon Board of Maritime Pilots has worked to 
ensure the safety of our maritime system by ensuring that only 
well-qualified persons are licensed to pilot vessels, entering 
and leaving Oregon ports. And Oregon pilot training and 
expertise is so specific that it takes two pilots to bring a 
ship into the Port of Portland. One to steer the ship across 
the Columbia River bar, and a second to navigate the river 
channel.
    Since the spill in San Francisco Bay, a lot of ideas have 
been floated to make changes to the current piloting system, 
with some calling for a much greater Federal role. And again, 
while I will remain open to good ideas, I believe that we need 
to be very careful that we don't needlessly and inadvertently 
jeopardize safety by shaking up a system that for hundreds of 
years is already proven highly effective.
    So, thank you Mr. Chairman. That's what I want to say as 
part of my testimony, and again welcome the Admiral.
    Senator Lautenberg. Thank you very much, Senator Smith. 
Senator Smith raises a point about how well things went for so 
many years, but the size of vessels has changed so radically.
    As a matter of fact, not wanting to date myself, but I 
sailed across the Atlantic during World War II on a ship that 
was considered pretty good size, it was called the America, and 
in its origination, it was the largest passenger ship built in 
America and then it was converted to the West Point, it became 
a troop ship.
    And I had staff check--just for old times' sake--the size 
of that, and it was 700 feet. That's like a launch on some of 
these boats that we see now.
    Commandant, thanks very much for the statement you made, 
and for the forward-looking steps that the Coast Guard is 
making to try and keep abreast of things.
    But one of the things that concerns me is whether or not 
the vessels applying our ports, our shores, have the financial 
ability to cover the costs of a spill that's up to their 
liability limit.
    Now, there was new regulation anticipated to cover that. 
Can you give us an idea when these new regulations regarding 
the financial conditions of the company that has that ship 
afloat might be published?
    Admiral Allen. Yes, sir. Actually, there are two 
regulations that are in progress. One of the is to be able to 
adjust limits of liability in the future based on a consumer 
price index, something that had not been done before the 
legislation. And the second one is to issue regulations that 
would create requirements for certificates of financial 
responsibility would match the liability limits.
    On the COFRs--the Certificate of Financial Responsibility, 
we are poised to issue that rule later on this Fall, and the 
other one is under development right now, but they are both in 
progress, sir.
    Senator Lautenberg. It's an important step, don't you 
think?
    Admiral Allen. Yes, sir.
    Senator Lautenberg. Especially with some of the flags that 
are flown--they are not always reliable, and----
    Admiral Allen. Yes, sir. For an example, the limits of 
liability for the COSCO BUSAN under the new liability limits 
went from somewhere in the thirties, to $61 million. But, 
without the rule to change the Certificate of Financial 
Responsibility, that remains at the lower limit in the $30,000 
range--that needs to be adjusted, sir.
    Senator Lautenberg. Thirty million? Yes.
    You just talked about adjusting the oil spill liability 
limits, and that should be accounting for inflation. Is the 
Coast Guard authorized to introduce that into the licensing 
requirement? To adjust for inflation?
    Admiral Allen. Yes, sir. Yes, sir--that's the intent of the 
rulemaking that's underway right now. Yes, sir.
    Senator Lautenberg. The GAO has found that the average cost 
of spills from single-hull barges and non-tank vessels are 
higher right now than current limits. Do you think that these 
liability limits should be adjusted beyond changes for 
inflation, to ensure that polluters pay fair amounts for the 
spills they've caused?
    Admiral Allen. Yes, sir, we do. We've submitted two reports 
since the passage of the legislation indicating that there's a 
larger share of liability against the Oil Spill Liability Trust 
Fund from single-hull ships or tankers, and barges. And, while 
we have not quantified that, yet, that is something that is 
worth discussing in the future, and whether or not an 
adjustment should be made, because it is inequitable in the 
current form, sir.
    Senator Lautenberg. Generally speaking, ships with double-
hulls around their fuel tanks improve the chances of surviving 
an accident. So, do you agree with that? The fact that double 
hulls around the fuel tanks protect us from spills that 
otherwise might not occur?
    Admiral Allen. Yes, sir. That's absolutely correct, and as 
was stated in my statement through our work at International 
Maritime Organization, we now have procedures in effect that 
will require those tanks to be double-hulled in the future. 
That is the right way to go, sir.
    Senator Lautenberg. And, I would ask this--should ships 
without these protected fuel tanks be required to pay more of 
their spill costs, given that they present a greater liability?
    Admiral Allen. Yes, sir. I think that's something that 
should be considered.
    Senator Lautenberg. Because I've had a look at the design 
recommendations by the international body to see where fuel 
tanks might be installed in the vessel, and getting them away 
from the bottom of the hull, but rather lifting them up--I have 
a question that tells you what an old-time sailor would ask. 
And that is, does that increase the instability in heavy seas? 
There's a lot of weight attached to those tanks when they're 
filled.
    Admiral Allen. Not necessarily, sir. The liquid loading of 
a ship should allow for transfer between tanks, whether it is 
shifting fuel as it's being used, and there are also tanks that 
are used for ballasting that can keep the ship stable. This is 
within the extreme art of the possible in ship design, sir.
    Senator Lautenberg. The Delaware River Oil Spill Advisory 
Commission was authorized in 2006. When might the Coast Guard 
actually create it?
    Admiral Allen. Sir, we're in the process of doing that 
right now. We've got the nominations of the personnel that are 
going to be part of the Advisory Committee. They're at the 
Department of Homeland Security being reviewed right now. On 
approval of those nominations, there is a requirement for them 
to hold their first meeting within 60 days, so as soon as those 
nominations are approved, we will notify your office, and you 
can expect a meeting within 60 days, sir.
    Senator Lautenberg. And the Vessel Identification System--
when might the Coast Guard have that system operational?
    Admiral Allen. Well, we have automated identification 
systems that are operating right now, sir, around the country, 
achieving coverage in accordance with the Maritime 
Transportation Security Act.
    We're also implementing agreements that have been made at 
IMO where long-range tracking will come into effect over the 
next 18 to 24 months. Our goal is to have coverage, ultimately, 
between AIS and long-range tracking out to 2,000 miles, if you 
declared your intent to the United States, if you're subject to 
Safety In Life At Sea Convention, or if you're in transit 1,000 
miles off the coast, sir.
    Senator Lautenberg. Now, that's not new technology, I 
assume. What is there, if anything, that impedes progress on 
that project?
    Admiral Allen. Only establishing the technical standards, 
and getting the equipment out there, establishing data centers 
and distributing the information. The AIS system has been 
around for some period of time, originally used as a collision 
avoidance and navigation support system for pilots and so 
forth. That is a line-of-sight system. We are currently in the 
process of building out the national AIS system, which will 
give us coverage around the entire United States and then also 
the ability to transmit data out to 24 miles. We'll move beyond 
that with long-range tracking, which is the new agreement that 
was reached last year at IMO, sir.
    Senator Lautenberg. So other, other seafaring countries 
will be required, as well, to participate in that program?
    Admiral Allen. Yes, sir. Signatories to the IMO Convention, 
once it's ratified, will be required to carry the equipment, 
and we can require that of signatory countries, as well, sir. 
There will have to be an international data center that will be 
stood up that collects the data, distributes it. There's still 
a decision to be made at IMO, where that will happen. We, in 
the Coast Guard, have volunteered to do that for the first 2 
years, and fund that while the decision is made on the ultimate 
location, sir.
    Senator Lautenberg. Last, you required the pilot in the 
COSCO BUSAN incident to turn in his Federal Merchant Marine 
Officer's License on the ground that he was not physically able 
to perform the pilot's duties. And, if that was the case--why 
was he granted a Coast Guard pilot's license in the first 
place?
    Admiral Allen. Sir, he was granted a license, and then he 
was granted a waiver on his medical condition, because that 
determination was made at the port level in San Francisco at 
the Regional Exam Center.
    As of October 2007, we have centralized the review of all 
medical examinations at our National Maritime Center in West 
Virginia, we actually have qualified public health doctors 
there, they're reviewing these records, rather than our people 
that work in the port level.
    His medical examination and the waiver associated with 
that, came before we had transferred the centralized review of 
medical files in West Virginia. When we did the review at that 
level, we found out that his current medical condition was not 
waiverable, and was something that would potentially impede his 
ability to perform. He has voluntarily surrendered his license, 
and that is an administrative procedure that we are taking, 
pending any kind of medical evidence he might want to give us 
that shows that he's qualified to carry out his duties. As it 
stands right now, he's surrendered his license, sir.
    Senator Lautenberg. Is the Coast Guard therefore taking 
steps to improve the medical review process for mariners' 
licensing, generally?
    Admiral Allen. Yes, sir. There are several things that are 
happening. First of all, we have centralized the review of all 
the physical exam reports in one location, with a medical staff 
that's qualified to do that.
    Second, we are issuing new regulations on merchant mariner 
documentation that will improve the medical standards and the 
screening for individuals that are applying for licenses.
    Third, we are putting out a navigational circular that will 
provide further guidance to the field on what the standards 
are. These three in combination, I think, are going to position 
us very well, and we expect to have the new guidance out 
sometime later on in the year after our advisory committee, the 
Towing Safety Advisory Committee, and our Maritime Personnel 
Advisory Committee, meet and finalize their input to those new 
policies, sir.
    Senator Lautenberg. Very good.
    Senator Smith?
    Senator Smith. Again, Admiral, thank you for all that you 
do, and your great branch of our service.
    You have worked with the public and private sector trade 
sectors, and the transportation interests in my state. I'm 
aware of--this has been quite successful in using existing 
technologies in business relationships and new and unique ways 
to improve navigation safety, and therefore the economic 
competitiveness of my part of the world.
    The--apparently the system developed and currently being 
used on the Columbia River not only provides pilots with real-
time vessel tracking information, but it is continually updated 
with the most recent channel survey information provided by the 
Army Corps of Engineers.
    This system--which was developed by the private sector--
clearly has some very important public safety and security 
applications. I understand in some testimony we will hear later 
in this hearing, that these ideas are spreading to other ports 
and parts of the country. So, I wonder what the Coast Guard 
sees as its role in fostering these private sector initiatives 
that improve the safety for the public sector?
    Admiral Allen. Yes, sir. I think it's important to draw 
information from wherever it exists, that can improve the 
safety and security of the operation of our waterways. Our 
ultimate goal in the Coast Guard is to create something what we 
called ``maritime domain awareness.'' And that's a combination 
of information, sensor data, what's held in the private sector, 
what is available through law enforcement, and to share this to 
improve the transparency--not only to improve safety, but also 
to be able to detect anomalies--who is obeying the rules, and 
who isn't--so we, there's a target of interest we can deal with 
them as far offshore as possible.
    Your maritime leadership in the Columbia River Basin 
briefed me several years ago when I was Chief of Staff, before 
I became Commandant, and I actually linked them up with our 
Maritime Domain Awareness Staff at that time, and we look 
forward to working with any community.
    The issue we have is--it sometimes gets down to bits and 
bytes and wires and how do you fuse everything together. A lot 
of times it's not a technology problem--it's how you put it all 
on the same screen, sir.
    Senator Smith. Do you see that as the Coast Guard's role, 
is helping to fuse everything together, then?
    Admiral Allen. To develop a common operating picture in and 
around a port environment is vital for us to conducting our 
mission, and I do see that as our role, sir.
    Senator Smith. Very good, well, I would certainly encourage 
that, because I think it's working and your leadership in that 
effort, bring publics and privates together, I think that 
that's commendable and I would say more, more of the same would 
be great, wherever in the country.
    Thank you, Mr. Chairman.
    Senator Lautenberg. Thanks very much, Senator Smith.
    Commandant Allen, one morning, not too long ago--I was 
listening to a broadcast on National Public Radio, and heard a 
man named John Devons, who was mayor of Valdez at that time of 
EXXON VALDEZ accident. And, a statement was made that the 
lingering oil of the running aground of the EXXON VALDEZ is 
insignificant, not a threat, but a response was, the oil 
residue is not bio-accessible--that means it's not posing any 
ecological risks to any of the species that remain in the 
Sound.
    Well, Mr. Devons, former Mayor, now Executive Director of 
the Prince Williams Sound Regional Citizens' Advisory Council 
said, ``Exxon can say all they want, and I mean, they have 
bought a lot of scientists who have said it's not causing any 
more problems. But the people live out there, and I mean, 
subsistence users, they know good and well that there's oil on 
those beaches,'' and before that it was said that those who 
once harvested wildly from the Sound now pick their spots 
warily. It may look Sierra Club Calendar perfect, but there's 
oil just beneath the surface. And the Mayor has been angry for 
18 years, and we're still wrestling with that, and I'm hoping 
that we've learned so much from that spill, it had to do with 
the skipper's condition, as well as how the course was set, and 
why we couldn't track that from a station on the land, and 
sound an alarm.
    Thank you, Commander Allen for your good work, and for the 
Coast Guard, generally. We appreciate, greatly, the work that 
they do, and we still have so much confidence in your 
abilities, that I'm afraid you'll get another assignment for 
the Coast Guard to handle. We'll try to prevent it, unless the 
money comes with it.
    Admiral Allen. Thank you, sir.
    Senator Lautenberg. Thank you very much.
    And now, we want to hear from the second panel, Mr. Paul 
Kirchner, who is the Executive Director and General Counsel for 
the American Pilots Association, Captain Ed Page, the President 
of the Maritime Exchange of Alaska, and Dr. Kirsi Tikka of 
Paramus, New Jersey, who serves as the Vice President of Global 
Technology and Business Development for the American Bureau of 
Shipping and I note for the benefit of my colleague and friend, 
it's an inland station in New Jersey where they're looking at 
the development of the American Bureau of Shipping.
    So, we thank all of you for being here, for sharing your 
expertise with us, and I would ask for your testimony, limit it 
to 5 minutes, please.
    And once settled, Mr. Kirchner?

 STATEMENT OF PAUL G. KIRCHNER, EXECUTIVE DIRECTOR AND GENERAL 
             COUNSEL, AMERICAN PILOTS' ASSOCIATION

    Mr. Kirchner. Thank you, Mr. Chairman and Senator Smith.
    My name is Paul Kirchner, I'm the Executive Director and 
General Counsel of the American Pilots' Association. The APA 
appreciates the invitation to testify today.
    In my written testimony, I provided some information about 
pilotage in the United States--perhaps more information than 
the Subcommittee really wanted--but I have, particularly, tried 
to address questions that have been raised in connection with 
the COSCO BUSAN incident. In addition, I will be happy to 
answer any questions that the Subcommittee might have today, or 
any time in the future.
    I do have a few short remarks, here.
    Senator Lautenberg. Please do.
    The pilotage system in this country is a system of State 
regulation. This reflects a specific judgment, made by Congress 
in 1789, that because of the unique nature of pilotage as well 
as the variation in navigation conditions and piloting demands 
in the different ports and waterways in the country, pilotage 
is best regulated at the State and local level.
    That judgment has been reaffirmed many times since, and the 
State pilotage system that has developed from that judgment, 
has served, and continues to serve, the interests of this 
country extremely well. The U.S. has the safest, most 
technologically advanced, and most efficient system of pilotage 
in the world.
    Any system, however, should constantly seek improvement. 
Although vessel accidents are very rare, when an accident does 
occur, pilot associations and State pilotage authorities 
recognize the need to examine their practices, to see if they 
can do a better job. The COSCO BUSAN incident provides U.S. 
pilotage with that challenge.
    What can the pilotage profession and the pilotage system 
learn from COSCO BUSAN, and are there changes that can be made 
to help prevent similar accidents in the future?
    The pilot community has already taken actions in response 
to the COSCO BUSAN incident. These address such matters as fog 
policies, training, and pilot carry-aboard equipment. As more 
is learned about the details of the accident, and its causes, 
there will be additional actions by various segments of the 
U.S. pilotage system--pilots, pilot associations, pilotage 
Commissioners, and State legislatures.
    The APA and its pilot members are also ready and willing to 
work with Congress and with the Coast Guard to find ways to 
improve the National Marine Safety Programs, upgrade the 
infrastructure associated with those programs, and generally 
enhance navigation safety.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Kirchner follows:]

      Prepared Statement of Paul G. Kirchner, Executive Director 
           and General Counsel, American Pilots' Association

    Good afternoon, Mr. Chairman and Members of the Subcommittee. I am 
Paul Kirchner, Executive Director--General Counsel of the American 
Pilots' Association. The APA appreciates the invitation to testify 
today to discuss pilotage in the United States and the role U.S. pilots 
play in the prevention of oil spills from vessels.
    The APA has been the national association of the piloting 
profession since 1884. Today, there are approximately 1,200 individual 
pilots working in the 60 APA-member pilot groups. These APA members 
pilot about 95 percent of all oceangoing foreign trade vessels moving 
in U.S. waters. Virtually all state-licensed pilots belong to an APA 
member group as well as all of the U.S. Coast Guard registered pilots 
working in the Great Lakes.
    The pilotage system in this country is a system of state 
regulation. State pilots are also subject to Federal navigation safety 
laws, hold Federal pilot licenses, and work closely with the Coast 
Guard. In every coastal state, however, the primary source of 
regulatory oversight of pilotage operations is a state governmental 
authority, typically a pilot commission. This system of state 
responsibility reflects a specific judgment made by Congress in 1789 
that pilotage is best regulated at the state and local level. The 
judgment has been reaffirmed many times since, and the state pilotage 
system has served, and continues to serve, the interests of this 
country extremely well. The U.S. has the safest, most technologically 
advanced, and most efficient system of pilotage in the world.
    Any system, however, should constantly seek improvement. Indeed, 
one of the major benefits of state and local level control of pilotage 
is the ability of the system to evolve and adjust to changing 
conditions and developments in vessel navigation. It also is able to 
respond quickly to lessons learned from accidents. Although vessel 
accidents are very rare, when an accident does occur, pilots, pilot 
associations, and state pilotage authorities recognize the need to 
examine their practices to see if they can do a better job. The COSCO 
BUSAN incident presents U.S. pilotage with that challenge. What can the 
piloting profession and the pilotage system learn from COSCO BUSAN, and 
are there changes that can be made to help prevent similar accidents in 
the future?
    Despite considerable speculation and opinions offered in news 
reports and other sources, we do not yet know what happened on the 
bridge of the COSCO BUSAN on the morning of November 7, 2007. Clearly, 
something went wrong in the navigation of that vessel. Typically, it 
takes a combination of things to produce this kind of result. In Bridge 
Resource Management terms, it appears that there was a lack of 
situational awareness and a chain of errors. Modern bridge procedures, 
including cross-monitoring and information sharing, are designed to 
prevent such problems from occurring, and if they do occur, from 
reaching a point where the result is an accident. Until we know exactly 
what errors were made and the specific reasons for the lack of 
situational awareness by the pilot and the bridge crew, we will not 
know why the normal fail safe mechanisms did not work on the COSCO 
BUSAN that morning.
    We do know, however, that the accident and its causes are being 
thoroughly investigated by a number of bodies. The Coast Guard and the 
NTSB are conducting casualty investigations to determine the causes of 
the accident. The Department of Homeland Security's Office of Inspector 
General is investigating certain aspects of the accident and the 
resulting oil spill. The U.S. Attorneys office is reportedly 
considering criminal charges.
    The pilot's performance is being examined by the state authorities. 
His state license was summarily suspended after the accident by the 
Board of Pilot Commissioners for the Bays of San Francisco, San Pablo 
and Suisun. On December 6, 2007, the Pilot Commission's Incident Review 
Committee filed an ``accusation'' against the pilot charging him 
generally with negligence and listing a number of asserted errors 
including his decision to get underway despite the fog conditions and a 
loss of situational awareness during the voyage.
    This is a formal license suspension or revocation proceeding under 
state statute and commission regulations. The matter is set for a 
hearing before an Administrative Law Judge. The hearing, which the ALJ 
has estimated may take 15 days, was recently postponed until September 
due to difficulties that the pilot and his attorneys are having 
securing evidence necessary for his defense. The ongoing criminal 
investigation was cited as a source of those difficulties. Meanwhile, 
the pilot's state license will remain suspended.
    The pilot has also surrendered his Federal pilot license to the 
Coast Guard. That action was taken in response to a notification from 
the Coast Guard that it has determined that he is not medically fit for 
the duties of a pilot, based on information that he had previously 
disclosed in connection with the Coast Guard's normal medical review 
program for pilots and other mariners. The Coast Guard has indicated 
that it will not return the license unless the pilot demonstrates that 
he is fit for duty.
    In addition to these investigations and actions taken against the 
pilot, various components of the pilotage system have already taken 
some steps to respond to several of the immediate issues that have been 
raised by the accident. For example, the San Francisco Bar Pilots 
Association is conducting a complete review of its operations. It has 
developed a new set of guidelines for moving in fog. Those guidelines 
have been submitted to the Coast Guard, and the expectation is that the 
Association and the Coast Guard will jointly submit them to the local 
Harbor Safety Committee for adoption and implementation in the region. 
The Association has established a committee of its members to work with 
a similar committee established by the San Francisco Pilot Commission 
to review the content of the Commission's training programs, 
particularly continuing training.
    The Pilot Commission has set up a Navigation and Technology 
Committee to study carry aboard electronic piloting units. The 
committee has been directed to issue a report to the Commission by June 
1 with recommendations on whether all pilots should be required to use 
such units, which types of units and capabilities should be selected, 
how and when they should be used, and what training should be required. 
Over the last 2 months, that committee has evaluated and ``test-
driven'' several different types of portable units, ancillary 
equipment, and navigation software programs.
    The Pilot Commission has also initiated a thorough review of its 
operations. The California State Legislature is considering several 
bills calling for reviews of, and in some cases changes to, the 
Commission's procedures and operations.
    The American Pilots' Association has conducted an in-depth survey 
of its member groups regarding their use of carry aboard units. Results 
of that survey should be available in another week or two. The APA also 
expects to issue a ``Best Practices'' paper on pilot carry aboards in 
the same timeframe. The Best Practices project was begun a number of 
months before the COSCO BUSAN accident, but the accident has 
accelerated the project's schedule.
    As more is learned about the details of the accident and its 
causes, there will be additional actions by various segments of the 
U.S. pilotage system--pilots, pilot associations, pilotage commissions, 
state legislatures--in response to the lessons of the COSCO BUSAN 
incident. The APA and its pilot members are also ready and willing to 
work with Congress and the Coast Guard to find ways to improve the 
national marine safety programs, upgrade the infrastructure associated 
with those programs, and generally enhance navigation safety.
    In order to assist the Subcommittee in its review of COSCO BUSAN 
and the subject of preventing oil spills from vessel casualties, we are 
providing the following information about pilotage in the U.S. The 
information is particularly addressed to questions that have been 
raised by the COSCO BUSAN incident.

U.S. Pilotage--An Overview
    Pilotage of international trade vessels in the United States is 
regulated by the individual states, each of which maintains a pilotage 
system that is suited to the particular needs and circumstances of its 
own waters. In 1789, the first Congress of the United States enacted a 
law giving the states the right to regulate pilotage in their waters. 
That created the state pilotage system, which remains in effect today. 
Every foreign-flag vessel and every United States-flag vessel engaged 
in international trade moving in the waters of a state is required by 
the state to take a pilot licensed by the state.
    Although each state has its own pilotage statute and regulatory 
system, there are substantial similarities in their systems. In all but 
one state, pilots are licensed and otherwise regulated by a pilot 
commission, which is a governmental entity that is part of a state 
agency or of a local municipality or port authority. Most pilot 
commissions have a mixed membership composed of representatives of ship 
operators, port interests, environmental groups, pilots, government 
agencies, and the public. The commission selects individuals for 
admission to a training program, oversees the training process, issues 
licenses, investigates accidents involving pilots or complaints filed 
against pilots, and oversees various aspects of the pilotage operation.
    Each U.S.-flag coastwise vessel is required by Federal law to use a 
pilot holding a Federal license issued by the Coast Guard. Unlike the 
comprehensive state systems, Federal regulation is limited to licensing 
and disciplinary enforcement. The Federal license has much lower 
qualification requirements and standards (for example, no prior 
training as a pilot or continuing training is required) than a state 
license and is similar to a pilotage exemption certificate issued under 
systems in other parts of the world. Each state pilot also holds a 
Federal license, however. In this respect, the Federal license serves 
as a national minimum standard.

State and Federal License Jurisdiction
    The states and the Coast Guard have reciprocal and mutually 
supportive roles in overseeing the professional activities of pilots. 
This is a carefully balanced system equally accommodating the need for 
comprehensive state pilotage regulation as well as the important 
Federal marine safety functions of the Coast Guard.
    When a state pilot is working on a vessel subject to a state 
compulsory pilotage requirement (i.e., a foreign flag vessel or a U.S.-
flag vessel operating under a registry endorsement), the pilot is 
considered to be ``working under the state license.'' As a consequence, 
the state pilotage authority (the applicable Pilot Commission) has the 
primary role in overseeing the pilot's performance. The state authority 
will investigate the pilot's performance and has a range or available 
remedial or disciplinary actions, including letters of warning, fines, 
remedial training, and suspension or revocation of the state license.
    The Coast Guard also has several forms of disciplinary measures 
that it can take against a state pilot for actions by the pilot while 
working under the state license. For example, the Coast Guard can 
initiate a license suspension or revocation proceeding against the 
pilot's Federal license if the pilot committed an ``act of incompetence 
relating to the operation of a vessel,'' 46 U.S.C. 7703(A)(4), even if 
that act occurred while working under the state license. Under Coast 
Guard regulations, ``incompetence is the inability on the part of a 
person to perform required duties, whether due to professional 
deficiencies, physical disability, mental incapacity or any combination 
thereof.'' 46 CFR 5.31. This license authority in the case of 
incompetence, for example, is the basis for the demand that the Coast 
Guard made for the surrender of the COSCO BUSAN pilot's license. The 
Coast Guard also has a wide range of civil penalties that can be 
assessed for a variety of violations and actions, including the 
negligent operation of a vessel.
    When a state pilot is working on a vessel subject to the Federal 
compulsory pilotage requirement (46 U.S.C. 8502 and 8503), the pilot is 
considered to be ``working under the Federal license.'' In that case, 
the Coast Guard is primarily responsible for overseeing the pilot's 
performance and taking appropriate responsive action, including letters 
of warning, civil penalties, remedial training, and suspension or 
revocation of the Federal license. In most states, the state pilotage 
authority may also take action against the pilot and his state license.
    There is one important limitation on the Coast Guard's authority to 
suspend or revoke a state pilot's Federal license. Under 46 U.S.C.  
7703, the Coast Guard can suspend or revoke a Federal license for 
negligence, misconduct or a violation of Coast Guard marine safety 
regulations only if the asserted offense occurred while the holder was 
acting under the authority of the Federal license. In the case of a 
state pilot, this Federal law bars the Coast Guard from proceeding 
against the Federal license of the pilot for asserted offenses of those 
types while working under the pilot's state license. This result is a 
necessary consequence of the system of state pilotage that has existed 
in this country for over 215 years.
    Removing that limitation to permit the Coast Guard to proceed 
against a state pilot's Federal pilot license for all types of asserted 
offenses while acting under the authority of the pilot's state license 
would interfere with and undermine the state's regulatory role. 
Virtually every state pilot is required by state statute, commission 
regulation, or association rules to have a Federal pilot license. The 
loss of a state pilot's Federal license, therefore, would effectively 
mean the loss of the pilot's ability to work as a state pilot. That 
would have the Coast Guard, not the state pilotage authority, exercise 
the ultimate control over state pilots.
    The courts have recognized the critical role that this limitation 
on the Coast Guard license authority plays in preserving the state 
pilotage system and the destructive impact that removing the limitation 
would have. For example, in Soriano v. United States, 495 F.2d 681 (9th 
Cir. 1974), the U.S. Ninth Circuit Court of Appeals struck down a Coast 
Guard attempt to avoid the limitation and proceed against the Federal 
pilot license of a pilot licensed by the State of Washington. The Coast 
Guard tried to use its regulation, currently at 46 CFR  5.57(a), 
providing that an individual is considered to be acting under the 
authority of a Federal license when the license is required by law or 
is a condition of employment (a Washington pilot is required by law to 
hold a Federal pilot license). The Court held that the regulation could 
not be used to obtain jurisdiction over a state pilot:

        The Commandant's condition of employment regulation leads to 
        precisely this result: it affects the power of the states to 
        regulate pilots of foreign-flag, merchant vessels in state 
        waters. . . . [E]ven though it chooses to require a Federal 
        pilot's license as a condition for the issuance of a state 
        license, the state of Washington still might not wish to see 
        its own pilots investigated and reprimanded for alleged 
        misconduct while serving as compulsory pilots pursuant to state 
        law.

        . . . The Commandant's regulation, which purports to place 
        state pilots under Coast Guard discipline, infringes upon an 
        area specifically reserved by Congress for 185 years for 
        regulation by the states and acknowledged by the Supreme Court 
        for more than 120 years to be a subject of peculiarly local 
        concern. See Cooley v. Board of Wardens of Port of 
        Philadelphia, 53 U.S. (12 How.) 299, 13 L.Ed 996 (1851). The 
        regulation is void.

    Id. at 684.
    Another attempt to avoid the limitation of 46 U.S.C.  7703 was 
struck down 2 years after the Soriano decision in Dietze v. Siler, 414 
F. Supp. 1105 (E.D. La. 1976). Again, the importance of the limitation 
in preserving the state pilotage system was recognized. The Dietze 
court observed:

        Thus retained [in the predecessor of 46 U.S.C.  7703] is the 
        traditional right of each state to enforce the standards of 
        state pilotage as to acts under state licenses, free from the 
        possibility that the same acts will be subject to Federal 
        investigation and the same pilots subject to sanction under 
        Federal law.

    Id. at 1113. In addition, the court described the limiting phrase, 
``acting under the authority of his license'' in the predecessor of 46 
U.S.C.  7703 as the product of the ``historical attempt by Congress to 
preserve the integrity of state regulation even while promoting public 
safety.'' Supra at 1112.
    This rather limited limitation on the Coast Guard's license 
authority in the case of state pilots has no effect on marine safety. 
The Coast Guard retains considerable authority to take action against a 
state pilot, including the very important authority to take away the 
Federal license of a state pilot who is incompetent--physically, 
mentally or professionally. Moreover, as a practical matter, the 
possibility of an action against a state pilot's Federal license for 
negligence or misconduct would provide no additional incentive for 
doing a good job. There is no lack of severe consequences for a pilot 
who is involved in an accident or has a substandard performance during 
a piloting assignment. State disciplinary and license actions, Federal 
and state civil penalties, uninsurable damages claims in civil suits, 
criminal charges, and potentially crippling legal fees provide 
incentive enough.
    The reality is that every time a pilot boards a ship, he or she 
knows that a moment's inattention, complacency, confusion, or a wrong 
decision could lead to a potentially catastrophic vessel casualty with 
hundreds of millions of dollars in damages and/or loss of life, the end 
of the pilot's career, and financial ruin for the pilot and the pilot's 
family. Coupled with the physical dangers involved in the job of 
piloting, no other occupation or profession presents such risks to its 
practitioners in the normal course of their activities.
Role of the Compulsory Pilot
    In 1997, the Board of Trustees of the APA adopted the following as 
the official statement of the piloting profession on the role of the 
compulsory state pilot and the relationship between the pilot and the 
master and bridge crew of a vessel. This statement has guided the 
profession ever since:

        Navigation of a vessel in U.S. pilotage waters is considered to 
        be a shared responsibility between the pilot and the master/
        bridge crew. The compulsory state pilot directs the navigation 
        of the vessel subject to the master's overall command of the 
        vessel and the ultimate responsibility for its safety. The 
        master has the right, and in fact the duty, to intervene or to 
        displace the pilot in circumstances where the pilot is 
        manifestly incompetent or incapacitated or the vessel is in 
        immediate danger (``in extremis'') due to the pilot's actions. 
        With that limited exception, international law requires the 
        master and/or the officer in charge of the watch to ``cooperate 
        closely with the pilot and maintain an accurate check on the 
        ship's position and movement.''

        State-licensed pilots are expected to act in the public 
        interest and to maintain a professional judgment that is 
        independent of any desires that do not comport with the needs 
        of maritime safety. In addition, licensing and regulatory 
        authorities, state and Federal, require compulsory pilots to 
        take all reasonable actions to prevent ships under their 
        navigational control from engaging in unsafe operations. 
        Because of these duties, a compulsory state pilot in the U.S. 
        is not considered a member of the ``bridge team.'' 
        Nevertheless, a pilot is expected to develop and maintain a 
        cooperative, mutually supportive working relationship with the 
        master and the bridge crew in recognition of the respective 
        responsibility of each for safe navigation.

Pilots and Advanced Navigation Technology: Carry Aboard Electronic 
        Units
    APA-member pilots are supporters of advanced navigation technology, 
extremely knowledgeable about it, and experienced practitioners in its 
use. Whether through the use of their own carry-aboard electronic 
navigation units or of equipment installed on ships' bridges, today's 
pilots understand and are familiar with the latest types of advanced 
navigation technology.
    With their knowledge and training, and their experience seeing all 
different types of ships with all different types of navigation 
technology, pilots are in a unique position to assess the strengths and 
weaknesses and the benefits and dangers in modern navigation 
technology. Pilots bring a very practical approach to navigation 
technology, one firmly rooted in what actually happens on the bridge of 
ship and what they need in order to make the best navigation decisions. 
This then can be described as a dual attitude of pilots toward advanced 
navigation technology. They support and embrace technology but with a 
full awareness of the cautions that must surround its use.
    There is one area in particular in which U.S. pilots have 
distinguished themselves in the practical application of advanced 
navigation technology. APA-member pilots in the U.S. have been the 
world leaders in the developing practice of pilot carry aboard units 
(also referred to as portable piloting units or PPUs). State pilots on 
the Bay and River Delaware are believed to have been the first pilots 
in the world to use carry aboard units over 25 years ago.
    The APA has played a major role in supporting this program in the 
U.S. The association has sponsored and conducted research on the 
subject. It has also made recommendations on the selection and use of 
carry aboard units as well as on training in not only the operation of 
the units but also in their incorporation into piloting practices and 
effective Bridge Resource Management principles.
    Today, approximately 55-60 percent of the 1200 pilots belonging to 
APA member pilot groups use some type of carry aboard unit. These 
pilots, often in conjunction with state pilotage authorities, have made 
the decision to use such units after considerable research and a 
determination that a particular type of unit could be of benefit as an 
additional source of navigation information under the conditions of 
piloting in their area.
    In places where units are not used today, it is because the pilots 
there have made an informed professional judgment that such a practice 
would not be appropriate at this time with the types of units currently 
available. As the technology evolves, the quality of electronic data 
improves, and new units become commercially available, the local pilots 
may decide to use carry aboard units at some point in the future. There 
will probably remain some locations, however, where carry aboard units 
will never be appropriate. The units may not be necessary or provide 
any benefits under the local conditions and types of piloting required 
or they could even have a negative effect on safety.
    Even where pilot groups use the units, including places where they 
have used the units for many years, the units are not used for every 
piloting assignment or task. For example, pilots might not use the 
units for shift jobs or other short movements, particularly in clear 
weather, or during certain operations, such as docking and undocking. 
The units may not be necessary or helpful for such assignments or may 
act as an unsafe distraction during an operation that requires the 
pilot's full attention to other navigation demands. Also, units are not 
used in some locations where the hydrographic data or satellite signal 
on which the unit depends may be unreliable.
    A large part of the success of the pilot carry aboard program in 
the U.S. can be attributed to the fact that it has been driven by the 
pilots themselves. The program has grown incrementally as pilots have 
developed units based on their intimate knowledge of the particular 
conditions and needs in their area--not on regulatory mandates or 
vendors' marketing claims. Pilots have also learned how best to use the 
units. For these reasons, the pilots are wary of potentially 
overwhelming governmental regulation, especially at the national level, 
which could seriously interfere with the growth and development of the 
program.
    There are ways, however, for the Federal Government to support the 
piloting profession's carry aboard program. The Coast Guard, for 
example, should be provided with adequate resources to maintain the 
DGPS and AIS infrastructure on which most units depend for their raw 
data. The recent decision by the Administration to request funding for 
a fully deployed eLoran system is a welcome development. A robust 
eLoran would provide a valuable terrestrial backup source of position, 
navigation and timing (PNT) data on which AIS and pilot carry aboard 
units depend. In addition, NOAA should be provided with full funding 
for a national program of Physical Oceanographic Real Time Systems, 
which provide valuable tide, current and water level data. In several 
places, pilots are seeking to have PORTS data included in their unit 
displays. That development is threatened, however, by the persistent 
underfunding of the PORTS program.

Pilots and VTS
    Pilots, as the principal users of VTS services and, for most 
vessels, the point of contact between the VTS and the vessel, value the 
information provided by VTS systems. That information is one of the 
resources that pilots use in maintaining situational awareness and 
making critical navigation decisions. The primary mission of the VTS, 
therefore, is to give pilots and other mariners the information that 
they feel is useful in making those decisions. Other functions and 
benefits, such as traffic management, traffic monitoring, interventions 
in navigation emergency situations, or other regulatory activities, are 
secondary, although important.
    Except in emergency situations or hazardous conditions, navigation 
decisions must be made on the bridge of the ship by the master, pilot, 
and other mariners involved in directing the movement of the ship. 
Nevertheless, there may be specific circumstances where the current 
role of VTS and its range of interactions with a vessel could be 
expanded. The APA and its members are certainly willing to discuss with 
the Coast Guard ways in which the VTS and pilots could better work 
together to prevent vessel accidents, particularly in conditions such 
as fog, when own-ship and other-ship position information may be 
compromised.
    It would be unrealistic, however, to think that vessels could ever, 
as a normal practice, be safely navigated by personnel in a VTS center. 
Information available from the current technology in VTS centers, 
particularly with respect to AIS indications of vessel location, is 
simply not accurate or reliable enough to justify attempts at directing 
a vessel's navigation. As result, interventions from a VTS center 
should be kept to a minimum and reserved for true emergencies and 
hazardous conditions where the normal risks of such action are 
outweighed by the exigencies of the situation.
    Even if the quality and quantity of the equipment in a VTS were 
significantly improved over what is found today, there is no way that 
the virtual information available in the VTS center could provide 
situational awareness of all the forces that affect a vessel or must be 
considered in making correct navigational decisions. Simply, the view 
from a VTS center is much different from the view from the bridge of a 
vessel.
    Watchstanders in Coast Guard VTS centers are not mariners and have 
little, if any, understanding of hydrodynamic or mechanical forces 
affecting a vessel, shiphandling techniques, or navigation practices. 
This is not meant as a criticism of VTS personnel--they are information 
providers, not vessel navigators. Even if the personnel were replaced 
or supplemented with experienced mariners who receive VTS training, it 
would still not be a safe practice to direct a vessel's navigation from 
a VTS center.
    Thank you Mr. Chairman. I hope the information we have provided is 
helpful, and I would be pleased to answer any questions that the 
Subcommittee may have.

    Senator Lautenberg. Thank you very much, Mr. Kirchner, 
we'll have a chance to ask some questions.
    And now, if you would, Captain Page?

 STATEMENT OF CAPTAIN EDWARD PAGE, EXECUTIVE DIRECTOR, MARINE 
                       EXCHANGE OF ALASKA

    Captain Page. Yes, sir. Chairman Lautenberg and Ranking 
Member Smith, it's my honor to have the opportunity to appear 
before you today to tell you about how the Maritime Industry is 
using vessel tracking technology to help prevent oil spills, 
and more effectively respond to marine casualties and 
environmental emergencies.
    My name is Ed Page, I'm Executive Director of the Marine 
Exchange of Alaska, previously served as Commissioned Officer 
in the United States Coast Guard.
    For the last 40 years, I've been committed to maritime 
safety, and throughout that time, I've learned firsthand that 
vessel tracking technology is critically important in 
preventing oil spills and responding to other maritime 
emergencies.
    Over the years, I've been involved in hundreds of maritime 
casualties that have resulted in loss of life, loss of 
property, disruption of trade, and environmental harm. My 3 
years of involvement in the EXXON VALDEZ oil spill made me 
realize we needed better prevention and response capabilities, 
and the best tool was having the ability to track the locations 
of vessels.
    Fifteen years ago, I was assigned as the Captain of the 
Port of Los Angeles, Long Beach. Upon my arrival, I was 
concerned I did not have the capabilities I needed, in order to 
do my job. I didn't know where our vessels were, and was told 
that a Coast Guard Vessel Traffic Service would not be 
available for 6 years.
    As a field commander, that was unacceptable. I therefore 
worked at the local marine exchange, the port community and the 
State of California to develop a Vessel Tracking System then. 
This Coast Guard-marine industry partnership that applied 
vessel tracking technology was--and continues to be--the reason 
why one of the largest ports in our Nation is also one of the 
safest.
    Marine Exchange of Alaska is a non-profit maritime 
organization established to provide information, communications 
and services to help ensure safe, secure, efficient, and 
environmentally responsible maritime operations. It is one of 
the 13 Marine Exchanges around the United States that 
collectively make up the Maritime Information Services of North 
America--or MISNA--that has used satellite and other 
technologies to track vessels throughout the United States, and 
in some cases, around the world.
    In 2004, the International Maritime Organization, or IMO, 
required vessels to be equipped with Automatic Identification 
Systems, or AIS, which is similar to airplane transponders. The 
Marine Exchanges that make up MISNA realized there was no 
national network of receivers to process the information 
broadcast by vessels that could aid safe and efficient maritime 
operations, so we therefore built and presently operate over 
100 AIS receiving stations around the United States that are 
tracking thousands of vessels every day.
    In fact, to make this easier to understand, this graphic to 
the right of me shows where the 100 some-odd sites that MISNA 
has developed over the last several years, are located. And, of 
course, you can see your states are represented--New Jersey and 
Delaware Bay and New York, and of course, Oregon.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Our sites extend, as you can see, from Maine, to Hawaii, to 
Alaska, and even above the Arctic Circle--we're ubiquitous.
    The next graphic will show you how we use this information, 
and how we can play back and examine vessel track lines to 
determine risk. This particular slide shows you the Unimak Pass 
and Aleutian Islands of Alaska and Bering Sea where vessels 
from around the world transit our waters. We can identify risk 
situations and manage that risk, and identify anomalies that 
would be of concern, and bring that to the attention of the 
United States Coast Guard.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The next graphic shows how we use that technology to help 
ensure environmentally responsible and sound maritime 
operations. This graphic is actually off the coast of 
Washington, the ``area to be avoided,'' the sensitive area, and 
we have put an electronic fence, if you will, using the AIS 
information, so if a vessel strays into a bad area, or wrong 
area, it automatically sends e-mail and phone messages off so 
we can correct the action.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    We do similarly up in Alaska's Glacier Bay--when a vessel 
exceeds a speed limit in Glacier Bay, where we're trying to 
protect whales--it automatically sends an e-mail and message 
off to the Park Service, who can notify the vessel to slow 
down.
    So, it's used in several different ways to protect 
environmental havoc that may be caused by vessels.
    And the last slide shows an emergency response where a 
cruise ship ran aground this last summer in Alaska, and this 
information provided the Coast Guard the location of other 
vessels to carry out abandon ships operations, salvage, and oil 
spill response, thus mitigating the impacts of that incident 
that happened in Alaska.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Going back to my experiences as the Captain of the Port of 
Los Angeles, Long Beach, and my years in the Coast Guard, I 
want to reiterate that this public-private partnership model 
that fully employs vessel tracking technologies is the most 
expedient and effective way to prevent oil spills, and respond 
to other maritime emergencies.
    I continue to urge the Coast Guard to fulfill their 
commitment to public-private partnerships, as articulated in 
the Coast Guard's ``Strategy for Maritime Safety, Security and 
Stewardship,'' and embrace these capabilities developed by the 
maritime industry.
    Thank you for the opportunity to appear before you today, 
and I stand by to answer your questions. Thank you.
    [The prepared statement of Captain Page follows:]

    Prepared Statement of Captain Edward Page, Executive Director, 
                       Marine Exchange of Alaska

    Chairman Lautenberg, Ranking Member Smith, and distinguished 
Subcommittee Members, it is my honor to have the opportunity to appear 
before you today to tell you about how the maritime industry is using 
vessel tracking technology to help prevent oil spills and more 
effectively respond to marine casualties and environmental emergencies. 
My name is Edward Page and I am the Executive Director of the Marine 
Exchange of Alaska, a non-profit maritime organization established to 
provide information, communications and services to aid safe, secure, 
efficient and environmentally responsible maritime operations.
    The Marine Exchange of Alaska is a member of the Maritime 
Information Service of North America (MISNA), a national coalition of 
maritime information organizations that represents the commercial 
maritime community's shared commitment to proactively address the 
challenges faced by the maritime industry, the U.S. Coast Guard, their 
respective states, and other Federal and state agencies in a 
cooperative and cost effective manner. MISNA membership also includes 
maritime exchanges in New England, New York, Philadelphia, Baltimore, 
Virginia, Florida, New Orleans, Houston, Los Angeles-Long Beach, San 
Francisco and Seattle. Several of the people who oversee the operations 
of these maritime exchanges are former Coast Guard Captains of the 
Port, and all the people who run these maritime exchanges have 
extensive maritime experience, including as licensed master mariners 
and senior maritime industry executives. MISNA, whose membership is 
comprised of over 8,000 maritime organizations is recognized as an 
honest broker of maritime information and collectively serves as the 
``eyes and ears'' of the maritime community.
    As a representative of the maritime industry, and just like 
Congress, I want to identify the best ways to prevent oil spills and 
environmental harm and improve the effectiveness of oil spill responses 
when maritime accidents occur. I am confident that substantial 
improvements to current practice can be made quickly and at minimal 
cost by expanding the application of existing vessel tracking 
technologies that have been developed through joint efforts by the 
Coast Guard, the Marine Exchange of Alaska, and the entire marine 
industry.
    Prior to establishing the Marine Exchange of Alaska 7 years ago, I 
served as an officer in the U.S. Coast Guard for 29 years. After 
serving as the Chief of the Coast Guard's Marine Environmental 
Protection branch for Alaska, I served as the Captain of the Port of 
Los Angeles-Long Beach. During this time, I responded to numerous 
search and rescue cases, maritime accidents and oil spills. My three-
year involvement in the EXXON VALDEZ response in particular convinced 
me that considerable resources should be devoted to the prevention of 
oil spills, as the recovery of oil is a daunting and costly challenge 
that historically has limited effectiveness. The phrase, ``an ounce of 
prevention is worth a pound of cure'' has clearly proven to apply to 
oil spills.
    During my time as Captain of the Port of Los Angeles-Long Beach, my 
strongest and most effective ally in preventing maritime accidents was 
the Marine Exchange of Los Angeles, along with the pilots, towing 
industry and vessel operators, and everyone who shared the same 
commitment and goal of ensuring safe and environmentally sound maritime 
operations. Our single most important and effective prevention resource 
was the vessel tracking information obtained from the expedited stand 
up of a vessel tracking system at the marine exchange. The information 
we obtained on vessels' movements was an eye opener; it provided me 
with important information that I did not have before we established 
the vessel tracking system, and it quickly led to the implementation of 
several risk mitigation measures including tug escort requirements in 
certain areas, relocation of pilot boarding areas, speed restrictions, 
changing of traffic lanes, special operating procedures for fog 
conditions, and many others. Cumulatively these changes turned one of 
the world's busiest ports into one of the world's safest.
    I am proud to say that this joint Coast Guard/Marine Exchange LA/LB 
vessel traffic center that we established in 1994 is still going 
strong, and in fact was recognized by the National Academy of Sciences 
and by Congress as an industry/Coast Guard joint venture that should be 
replicated to save costs and increase effectiveness in ensuring safe, 
secure, efficient and environmentally responsible maritime operations.
    The lesson I learned from my 40 years in the Coast Guard and 
working in the marine industry is that the most powerful tool for 
protecting our shores from oil spills and other environmental disasters 
is the information on vessels' locations provided by vessel tracking 
systems. Analysis of historical vessel tracks aid risk assessment and 
risk management, and the ability to see vessel positions in real-time 
aids prevention of incidents and emergency response. The Coast Guard 
calls this Maritime Domain Awareness (MDA), or the effective 
understanding of anything in the maritime environment that can affect 
the safety, security, economy, or environment of the United States.
    The best way to achieve maritime domain awareness quickly and 
effectively is through strong public-private partnerships. This is 
recognized in The U.S. Coast Guard Strategy for Maritime Safety, 
Security, and Stewardship which states that ``Government and private 
stakeholders must establish an unprecedented level of information 
sharing and intelligence integration'' in order to enhance maritime 
domain awareness. This document also states that prevention efforts 
``work best when implemented through strong partnerships with the 
commercial and recreational users of the Nation's ports and 
waterways.''
    I have learned first hand that the marine industry is more 
effective than the government when it comes to providing vessel 
tracking capabilities, and is also best suited for ensuring that 
information obtained from their vessel tracking systems is effectively 
shared with those in the marine industry and government. I took these 
lessons with me when I retired from the Coast Guard to stand up the 
marine exchange for Alaska to help address the challenges of ensuring 
safe and environmentally sound operations in the largest and most 
daunting maritime region in the U.S.
    When the International Maritime Organization (IMO) mandated in 2004 
that all vessels be equipped with Automatic Identification Systems 
(AIS)--which are like airplane transponders--the Marine Exchange of 
Alaska, and other marine exchanges around the country realized that AIS 
would not improve maritime safety unless there were also receiving 
stations on shore able to receive, process and disseminate the 
information. As a result, we constructed a network of AIS receiving 
stations around the country, and today marine exchanges operate a 
network of more than 100 AIS receiving sites on all three coasts and in 
Hawaii.
    In Alaska, we went one step further, and along with our extensive 
network of maritime stakeholders, my staff of five people deployed a 
tracking system that uses both satellite (long range) and an Automatic 
Identification System (AIS) network of over 50 receiving sites 
extending from the Arctic, 1,500 miles west through the Aleutian 
Islands, and 1,200 miles south to Ketchikan. In Alaska, we have shared 
the information obtained from our tracking system with the State of 
Alaska, the Coast Guard and the marine industry. Our vessel tracking 
system has been used to assist vessels in distress, aid oil spill 
response operations by locating rescue and oil spill recovery vessels, 
and to compliment maritime security efforts. The Coast Guard, State of 
Alaska and the marine industry have all invested in the establishment 
and operation of this vessel tracking network which we plan to expand 
into areas of the Arctic, Chukchi, and Bering Seas that currently lack 
AIS coverage.
    While the Coast Guard recognizes the importance of having this 
capability in Alaska and other regions of the US, their focus has been 
on establishing a National AIS network that is projected to be fully 
operational after 2014. We in the marine industry believe that 
utilization of the vessel tracking system currently operated by marine 
exchanges across the country provides a today solution that should be 
tapped right now to serve as a bridging and complementary solution 
until the Coast Guard's national AIS system is in place.
    There are many examples of how the vessel tracking system 
established and operated by the Marine Exchange of Alaska has been used 
to aid maritime safety. For example:

  <bullet> In order to minimize whale ship strikes, e-mail alerts are 
        automatically transmitted in real-time to the U.S. Park Service 
        when vessels are exceeding speed limits imposed in regions of 
        Glacier Bay, Alaska where humpback whales are present;

  <bullet> Erratic and high risk vessel operations in Alaska waters are 
        graphically provided to the Coast Guard for investigation and 
        follow-up;

  <bullet> The historical tracklines and detailed information on 
        vessels transiting Alaska waters and traveling to and from the 
        Far East are provided to the Coast Guard for risk assessment;

  <bullet> The locations of oil exploration vessels in the Arctic have 
        been tracked in real time and shared with the Coast Guard and 
        State agencies;

  <bullet> The location of oil spill response vessels responding to the 
        SELENDANG AYU oil spill in the Aleutian Islands was provided in 
        real time with satellite transponders to the Coast Guard, State 
        of Alaska agencies and commercial spill responders;

  <bullet> The location of a grounded tanker SEABULK PRIDE in Cook 
        Inlet Alaska and the locations and transits of response vessels 
        was provided to the Coast Guard, State of Alaska agencies and 
        the commercial tugs and response vessels; and

  <bullet> The location of Good Samaritan vessels used to rescue 
        passengers from the grounded cruise ship EMPRESS OF THE NORTH 
        in Alaska was provided to the Coast Guard this past summer.

    Similar capabilities are being provided around the U.S. by other 
maritime exchange organizations that are networked together by MISNA. 
Off the coast of Washington State, for instance, e-mail alerts are 
automatically transmitted when vessels enter a NOAA established ``Area 
To Be Avoided.''
    In closing, I would like to reiterate that vessel tracking 
technologies are critical in protecting our shores from oil spills and 
other environmental disasters. I urge the Coast Guard to utilize the 
vessel tracking network developed by the marine industry and that is 
operational today to help prevent and respond to oil spills as well as 
aid the execution of the services' search and rescue and maritime 
security missions. Such efforts will help achieve our common goal of 
providing for safe, secure, efficient and environmentally sound 
maritime operations.
    Thank you, Mr. Chairman and Members of the Subcommittee, for the 
opportunity to testify today on behalf of the Marine Exchange of Alaska 
and the Maritime Information Service of North America. I look forward 
to answering any questions you may have.

    Senator Lautenberg. Thank you very, very much.
    Dr. Tikka?

STATEMENT OF DR. KIRSI TIKKA, VICE PRESIDENT, GLOBAL TECHNOLOGY 
  AND BUSINESS DEVELOPMENT, AMERICAN BUREAU OF SHIPPING (ABS)

    Dr. Tikka. Thank you. Thank you, Mr. Chairman, Members of 
the Committee, good afternoon.
    My name is Dr. Kirsi Tikka, I am Vice President, Global 
Technology and Business Development, at the American Bureau of 
Shipping. I am appearing before you today, at your request, to 
provide you with factual information relating to the 
international requirements for the protective location of fuel 
oil tanks on ships.
    ABS is a not-for-profit organization whose mission is to 
promote the security of life, property, and the natural 
environment, primarily through the development and verification 
of standards for the design, construction and operational 
maintenance of marine-related facilities.
    The principal safety and environmental standards for the 
international shipping industry are established through the 
International Maritime Organization--IMO--the specialized 
agency of the United Nations. These include the Safety of Life 
at Sea, SOLAS, Convention, and the International Convention for 
the Prevention of Pollution of Ships, MARPOL.
    This international approach is essential if commercial 
ships are to be able to trade across all oceans, and to all 
nations under a consistent set of statutory requirements.
    Concerned about the potential for pollution from a ruptured 
fuel oil space, in 2006 IMO's Marine Environment Protection 
Committee--MEPC--adopted an amendment to the revised MARPOL 
Annex I, that includes the new Regulation 12A on oil fuel tank 
protection.
    It applies to all new ships and major conversions with an 
aggregate oil fuel capacity of 600 cubic meters and above, for 
which either the contract for construction between shipbuilder 
and ship owner was placed on or after 1 August 2007, or the 
ship is delivered on or after 1 August 2010.
    The initiative to develop this regulation started with a 
proposal by the Netherlands in the working group on oil tanker 
safety and environmental matters in December 2000. The 
Netherlands pointed out that large ships often carry large 
quantities of fuel oil. In the case of pollution incidents 
involving fuel oil, it would be appropriate to require a 
similar degree of protection against collision or grounding, as 
in oil tankers. Those affected by oil pollution will not accept 
any distinction as to the source of the oil.
    The proposal was subject to several years of review, 
ultimately culminating in the new amendment, the objective of 
which is to reduce the frequency and volume of fuel oil spills, 
in the event of collision or grounding. The regulations, as 
adopted, apply to tanks greater than 30 cubic meters in 
capacity in which oil fuel is carried.
    Designers and owners are given two alternative approaches 
to apply with the new requirements. In both approaches, the 
maximum individual tank capacity of 2,500 cubic meters is 
imposed.
    It is expected that most owners of most ship types will opt 
for the first, prescriptive alternative, which protectively 
locates the bunker tanks in board of, and above double-side and 
double-bottom spaces, respectively.
    The second alternative is an accidental oil fuel out-flow 
performance standard. It is inherent in the new regulations 
that the fuel oil piping shall also be located in protected 
positions.
    On the basis of the new designs that have been reviewed by 
ABS, it appears that the most common approach adopted by 
shipyards is to provide protected location in the engine room, 
in protected locations in topside tanks, and deep tanks between 
the transverse bulkheads, between the cargo holds.
    Incorporating the required protectively located spaces will 
incur additional bulkheads, and associated structural costs. 
With the possible exception of container ships, cargo-carrying 
capacity is not expected to be materially affected.
    I have provided, as handout to the Committee, some 
illustrations of the impact of this regulation, that I'm happy 
to explain, if needed.
    Mr. Chairman, it has been my pleasure to address you today, 
I am more than happy to answer any relevant questions the 
Committee Members may have.
    Thank you.
    [The prepared statement of Dr. Tikka follows:]

     Prepared Statement of Dr. Kirsi Tikka, Vice President, Global 
 Technology and Business Development, American Bureau of Shipping (ABS)

    Mr. Chairman, Members of the Committee, good afternoon.
    My name is Dr. Kirsi Tikka. I am Vice President, Global Technology 
and Business Development of the American Bureau of Shipping or ABS, as 
we are more commonly called.
    I am appearing before you today, at your request, to provide you 
with factual information relating to the international requirements, 
both statutory and those required by the self-regulating mechanism for 
international shipping known as classification, for the protective 
location of fuel oil tanks on ships.
    ABS is a not-for-profit organization. Founded in 1862, it is one of 
the world's leading classification societies. The Mission of ABS is to 
serve the public interest as well as the needs of our clients by 
promoting the security of life, property and the natural environment 
primarily through the development and verification of standards for the 
design, construction and operational maintenance of marine-related 
facilities.
    The U.S. Merchant Marine Act of 1920 officially recognized ABS as 
the classification body for U.S. Government owned vessels. We continue 
to act in this manner to this day.

International Maritime Standards
    Technical standards for the international shipping industry are 
principally established through two complementary mechanisms. Paramount 
is the International Maritime Organization (IMO) the specialized agency 
of the United Nations charged with responsibility for the development 
and maintenance of a comprehensive regulatory framework for shipping. 
Its remit includes both safety and environmental concerns. It is an 
inter-governmental agency with 167 Member States, including the United 
States of America.
    It has long been accepted that it is the role of government to 
determine the overall level of risk to which its citizens should be 
exposed from the conduct of international shipping.
    Because of the international nature of shipping, this evaluation 
has been carried out within the IMO which has developed, and amended as 
necessary, the principal Conventions that apply to the industry, most 
notably the Safety of Life at Sea (SOLAS) Convention, the International 
Convention on Load Lines (ICLL) and the International Convention for 
the Prevention of Pollution from Ships (MARPOL), the provisions of 
which are then adopted into national law, as appropriate, by the 
individual member States. This international approach is essential if 
commercial ships are to be able to trade across all oceans and to all 
nations under a consistent set of statutory requirements.
    Complementing this regulatory approach is the self-regulatory 
practice of classification which can trace its history back more than 
200 years. Growing out of a need of the marine underwriting community 
to have an impartial, independent mechanism for establishing detailed 
technical standards for the design, construction and maintenance of 
ships, classification societies such as ABS work closely with 
governments and industry to establish these standards, known as Rules.
    In view of this, and responding to the request of this Committee 
for information with respect to the current regulatory requirements 
relating to the protective location of fuel oil tanks on commercial 
vessels, ABS is pleased to provide the following summary.
    It should be noted that, for the sake of clarity, the following 
remarks address the standards for ships. The IMO requirements also 
consider specialized offshore units, such as some of those in operation 
in the U.S. waters of the Gulf of Mexico. Information relating to these 
units can be found in the text of the MARPOL amendment that appears as 
an appendix to this statement. ABS would be pleased to provide 
subsequent written information on this specialized application if the 
Committee deems it useful.

IMO Regulations
    Concerned about the potential for pollution from a ruptured fuel 
oil tank, in 2006 IMO's Marine Environment Protection Committee (MEPC) 
adopted an amendment to the revised MARPOL Annex I (Prevention of 
Pollution by Oil) that includes a new regulation (12A) on fuel oil tank 
protection. (The full text of the amendment is attached to this 
statement as Appendix I.)
    It applies to all new ships and major conversions with an aggregate 
fuel oil capacity of 600 m\3\ (158,502 U.S. gallons \1\ or about 570 
tons of Marine Fuel Oil (MFO)) and above for which either the contract 
for construction between shipbuilder and shipowner was placed on or 
after 1 August 2007 or, if no contract, the keel is laid on or after 1 
February 2008 or the ship is delivered on or after 1 August 2010.
---------------------------------------------------------------------------
    \1\ 264.17 U.S. gallons/m\3\
---------------------------------------------------------------------------
    The initiative to develop this regulation started with a proposal 
by the Netherlands in the Working Group on Oil Tanker Safety and 
Environmental Matters at a meeting of the IMO's Maritime Safety 
Committee (MSC), in December 2000; one of many safety and environmental 
initiatives taken up by IMO following the sinking of the oil tanker 
ERIKA off the coast of France in 1999.
    The Netherlands pointed out that:

  <bullet> large ships often carry quantities of fuel oil that exceed 
        the cargo oil deadweight limits of MARPOL for the protection of 
        cargo tanks in oil tankers.

  <bullet> in the case of a pollution incident involving a ship 
        carrying a large quantity of fuel oil in its fuel oil tanks it 
        would therefore be appropriate to require a similar degree of 
        protection against collision or grounding as in oil tankers.

  <bullet> those affected by oil pollution will not accept any 
        distinction as to the source of the oil pollution.

    The Netherlands proposed double-side and double-bottom protection 
for fuel oil tanks in line with those required for cargo oil tanks of 
oil tankers. The proposal was subject to several years of 
investigation, review and debate, ultimately culminating in the new 
Amendment, the objective of which is to reduce the frequency and volume 
of fuel oil spills in the event of a collision or grounding.
    The regulations, as adopted, apply to tanks greater than 30 m\3\ 
(7,925.1 U.S. gallons) in capacity in which fuel oil is carried but 
excludes those tanks which would not contain fuel oil in normal 
operation such as overflow and sludge tanks.
    Designers and owners are given two alternative approaches to comply 
with the new requirements. In both approaches a maximum individual tank 
capacity of 2,500 m\3\ (660,425 U.S. gallons) is imposed.
    It is expected that most owners of most ship types will opt for the 
first, prescriptive alternative which protectively locates the fuel oil 
tanks inboard of and above double side and double bottom spaces 
respectively. The double bottom height ranges, as a function of ship 
breadth, from a minimum of 0.76 meters to a maximum of 2.0 meters, in 
line with newly adopted SOLAS regulations. The double side width 
ranges, as a function of total fuel oil capacity, from a minimum of 1.0 
meter to a maximum of 2.0 meters; with the exception of a minimum 
double side width of 0.76 meters for individual fuel oil tanks with a 
capacity of less than 500 cubic meters (132,085 U.S. gallons).
    The second alternative is an accidental fuel oil outflow 
performance standard that allows the designer to locate fuel oil tanks 
based on a calculated ``mean oil outflow parameter'', in the event of a 
collision or grounding, as compared to a maximum allowable value. 
Specific procedures are given for the calculation of the oil outflow 
from each tank, due to side damage and bottom damage, based on its 
probability of being breached in the event of a collision or grounding.
    This probabilistic approach also takes into account the density of 
the fuel oil, the location of each fuel oil tank relative to the side 
shell and bottom shell and the tank size. These are used to determine 
the mean oil outflow parameter for the ship. In the event that a double 
bottom or double side is fitted to reduce the mean oil outflow, the 
dimensions of those spaces are to be not less than those required under 
the prescriptive alternative.
    Mr. Chairman, I realize that while the protective location under 
the first approach is easy to grasp, this very brief explanation of the 
probabilistic approach may sound complex. It was adopted by the IMO, 
after discussion with industry, in order to give designers the freedom 
to optimize fuel oil tank arrangements and to deal with the design 
constraints encountered in different ship types. The approach was 
developed by a Panel of the U.S.-based Society of Naval Architects and 
Marine Engineers (SNAME) based on, and in line with, the recently 
adopted accidental oil outflow performance requirements related to 
spills from cargo oil tanks in the event of collisions or groundings 
contained in MARPOL Annex I regulation 23.
    It is inherent in the new regulations that the fuel oil piping 
shall also be located in protected positions. Where the piping must be 
placed closer to the ships bottom or side than specified, MARPOL Annex 
I regulation 12A requires the fitting of valves or similar closing 
devices within, or immediately adjacent to, the protected fuel tank. 
The valves must be capable of being operated remotely from either the 
bridge or machinery control position, they must fail in a closed 
position in the event of a remote control system failure and they are 
to be kept closed at sea except during the transfer of fuel oil.
    On the basis of the new designs that have been reviewed by ABS, it 
appears that the most common approach adopted by shipyards for tanker 
designs is to provide protected locations in the engine room and in way 
of the pump room. For oil tankers, it is noted that in accordance with 
MARPOL Annex I, regulation 19.3, double bottom and double side tanks 
that are used to protect cargo oil tanks are not allowed to hold oil of 
any kind, including fuel oil, even if the probabilistic approach were 
to indicate otherwise.
    To date, bulk carrier designers are largely choosing to locate fuel 
oil tanks in the engine room, in protected locations in topside tanks 
and in protected spaces between the engine room and the aftermost cargo 
hold.
    LNG carrier designers are tending toward providing protected space 
in the engine room or in protected locations between the collision 
bulkhead and the cofferdam bulkhead of the No. 1 cargo tank.
    Large containerships pose a particular challenge given the very 
large quantity of fuel oil that must be carried to maintain the 
preferred high service speeds. The most common arrangement to date is 
to use protectively located deep tanks between the transverse bulkheads 
between the cargo holds. An alternative arrangement is to provide fuel 
oil tanks above the double bottom in one or more cargo holds which, 
however, reduces cargo capacity.
    For all ship types, incorporating the required protectively located 
spaces will incur additional bulkheads and associated structural costs. 
With the possible exception of containerships, cargo carrying capacity 
is not expected to be materially affected.
ABS Standards
    To encourage owners to consider incorporating protectively located 
fuel oil tanks into new ship designs, ABS introduced the optional class 
notation POT (Protection of Fuel and Lubricating Oil Tanks) effective 1 
July 2003, more than 4 years in advance of the implementation date of 
the new MARPOL regulation. ABS has been gratified that several 
shipowners have chosen to adopt the ABS optional notation in advance of 
the regulatory requirements taking effect.
    Mr. Chairman, it has been my pleasure to address you today. I am 
more than happy to answer any relevant questions the Committee members 
may have.
    Thank you.

                                Appendix
                                Annex 2
                        Resolution MEPC.141(54)
                        Adopted on 24 March 2006
Amendments to the Annex of the Protocol of 1978 Relating to The 
        International Convention for the Prevention of Pollution from 
        Ships, 1973
(Amendments to regulation 1, addition to regulation 12A, consequential 
        amendments to the IOPP Certificate and amendments to regulation 
        21 of the revised Annex I of MARPOL 73/78)
    The Marine Environment Protection Committee,
    RECALLING article 38(a) of the Convention on the International 
Maritime Organization concerning the functions of the Marine 
Environment Protection Committee (the Committee) conferred upon it by 
international conventions for the prevention and control of marine 
pollution,
    NOTING article 16 of the International Convention for the 
Prevention of Pollution from Ships, 1973 (hereinafter referred to as 
the ``1973 Convention'') and article VI of the Protocol of 1978 
relating to the International Convention for the Prevention of 
Pollution from Ships, 1973 (hereinafter referred to as the ``1978 
Protocol'') which together specify the amendment procedure of the 1978 
Protocol and confer upon the appropriate body of the Organization the 
function of considering and adopting amendments to the 1973 Convention, 
as modified by the 1978 Protocol (MARPOL 73/78),
    NOTING ALSO that the revised Annex I to MARPOL 73/78 was adopted by 
resolution MEPC.117(52) and is expected to enter into force on 1 
January 2007,
    HAVING CONSIDERED proposed amendments to regulation 1, proposed new 
regulation 12A, consequential amendments to the Supplement (Forms A and 
B) of the IOPP Certificate, and proposed amendments to regulation 21 of 
the revised Annex I to MARPOL 73/78,
    1. ADOPTS, in accordance with article 16(2)(d) of the 1973 
Convention, the amendments to the revised Annex I of MARPOL 73/78, the 
text of which is set out at Annex to the present resolution;
    2. DETERMINES, in accordance with article 16(2)(f)(iii) of the 1973 
Convention, that the amendments shall be deemed to have been accepted 
on 1 February 2007, unless prior to that date, not less than one-third 
of the Parties or Parties the combined merchant fleets of which 
constitute not less than 50 per cent of the gross tonnage of the 
world's merchant fleet, have communicated to the Organization their 
objection to the amendments;
    3. INVITES the Parties to note that, in accordance with article 
16(2)(g)(ii) of the 1973 Convention, the said amendments shall enter 
into force on 1 August 2007 upon their acceptance in accordance with 
paragraph 2 above;
    4. REQUESTS the Secretary-General, in conformity with article 
16(2)(e) of the 1973 Convention, to transmit to all Parties to MARPOL 
73/78 certified copies of the present resolution and the text of the 
amendments contained in the Annex; and
    5. REQUESTS FURTHER the Secretary-General to transmit to the 
Members of the Organization which are not Parties to MARPOL 73/78 
copies of the present resolution and its Annex.
                                 ______
                                 
                                 Annex
                Amendments to the Revised MARPOL Annex I
1  Addition of paragraph 28.9 to regulation 1
    The following new paragraph 28.9 is added after the existing 
paragraph 28.8 of regulation 1:

        ``28.9  ship delivered on or after 1 August 2010 means a ship:

        .1  for which the building contract is placed on or after 1 
        August 2007; or

        .2  in the absence of a building contract, the keels of which 
        are laid or which are at a similar stage of construction on or 
        after 1 February 2008; or

        .3  the delivery of which is on or after 1 August 2010; or

        .4  which have undergone a major conversion:

                .1  for which the contract is placed after 1 August 
                2007; or

                .2  in the absence of contract, the construction work 
                of which is begun after 1 February 2008; or

                .3  which is completed after 1 August 2010.''
2  Addition of new regulation 12A on oil fuel tank protection
    The following new regulation 12A is added after the existing 
regulation 12:

        ``Regulation 12A--Oil fuel tank protection

    1  This regulation shall apply to all ships with an aggregate oil 
fuel capacity of 600 m\3\ and above which are delivered on or after 1 
August 2010, as defined in regulation 1.28.9 of this Annex.
    2  The application of this regulation in determining the location 
of tanks used to carry oil fuel does not govern over the provisions of 
regulation 19 of this Annex.
    3  For the purpose of this regulation, the following definitions 
shall apply:

        .1  ``Oil fuel'' means any oil used as fuel oil in connection 
        with the propulsion and auxiliary machinery of the ship in 
        which such oil is carried.

        .2  ``Load line draught (d<INF>S</INF>)'' is the vertical 
        distance, in metres, from the moulded baseline at mid-length to 
        the waterline corresponding to the summer freeboard draught to 
        be assigned to the ship.

        .3  ``Light ship draught'' is the moulded draught amidships 
        corresponding to the lightweight.

        .4  ``Partial load line draught (d<INF>P</INF>)'' is the light 
        ship draught plus 60 percent of the difference between the 
        light ship draught and the load line draught d<INF>S</INF>. The 
        partial load line draught (d<INF>p</INF>) shall be measured in 
        metres.

        .5  ``Waterline (d<INF>B</INF>)'' is the vertical distance, in 
        metres, from the moulded baseline at mid-length to the 
        waterline corresponding to 30 percent of the depth 
        D<INF>S</INF>.

        .6  ``Breadth (B<INF>S</INF>)'' is the greatest moulded breadth 
        of the ship, in metres, at or below the deepest load line 
        draught (d<INF>S</INF>).

        .7  ``Breadth (B<INF>B</INF>)'' is the greatest moulded breadth 
        of the ship, in metres, at or below the waterline 
        (d<INF>B</INF>).

        .8  ``Depth (D<INF>S</INF>)'' is the moulded depth, in metres, 
        measured at mid-length to the upper deck at side. For the 
        purpose of the application, ``upper deck'' means the highest 
        deck to which the watertight transverse bulkheads except aft 
        peak bulkheads extend.

        .9  ``Length (L)'' means 96 percent of the total length on a 
        waterline at 85 percent of the least moulded depth measured 
        from the top of the keel, or the length from the foreside of 
        the stem to the axis of the rudder stock on that waterline, if 
        that be greater. In ships designed with a rake of keel the 
        waterline on which this length is measured shall be parallel to 
        the designed waterline. The length (L) shall be measured in 
        metres.

        .10  ``Breadth (B)'' means the maximum breadth of the ship, in 
        metres, measured amidships to the moulded line of the frame in 
        a ship with a metal shell and to the outer surface of the hull 
        in a ship with a shell of any other material.

        .11  ``Oil fuel tank'' means a tank in which oil fuel is 
        carried, but excludes those tanks which would not contain oil 
        fuel in normal operation, such as overflow tanks.

        .12  ``Small oil fuel tank'' is an oil fuel tank with a maximum 
        individual capacity not greater than 30 m\3\.

        .13  ``C'' is the ship's total volume of oil fuel, including 
        that of the small oil fuel tanks, in m\3\, at 98 percent tank 
        filling.

        .14  ``Oil fuel capacity'' means the volume of a tank in m\3\, 
        at 98 percent filling.

    4  The provisions of this regulation shall apply to all oil fuel 
tanks except small oil fuel tanks, as defined in 3.12, provided that 
the aggregate capacity of such excluded tanks is not greater than 600 
m\3\.
    5  Individual oil fuel tanks shall not have a capacity of over 
2,500 m\3\.
    6  For ships, other than self-elevating drilling units, having an 
aggregate oil fuel capacity of 600 m\3\ and above, oil fuel tanks shall 
be located above the moulded line of the bottom shell plating nowhere 
less than the distance h as specified below:

        h = B/20 m or,

        h = 2.0 m, whichever is the lesser.

        The minimum value of h = 0.76 m

        In the turn of the bilge area and at locations without a 
        clearly defined turn of the bilge, the oil fuel tank boundary 
        line shall run parallel to the line of the midship flat bottom 
        as shown in Figure 1.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
    Figure 1--Oil fuel tank boundary lines for the purpose of paragraph 
6

    7  For ships having an aggregate oil fuel capacity of 600 m\3\ or 
more but less than 5,000 m\3\, oil fuel tanks shall be located inboard 
of the moulded line of the side shell plating, nowhere less than the 
distance w which, as shown in Figure 2, is measured at any cross-
section at right angles to the side shell, as specified below:

        w = 0.4 + 2.4 C/20,000 m

        The minimum value of w = 1.0 m, however for individual tanks 
        with an oil fuel capacity of less than 500 m\3\ the minimum 
        value is 0.76 m.

    8  For ships having an aggregate oil fuel capacity of 5,000 m\3\ 
and over, oil fuel tanks shall be located inboard of the moulded line 
of the side shell plating, nowhere less than the distance w which, as 
shown in Figure 2, is measured at any cross-section at right angles to 
the side shell, as specified below:

        w = 0.5 + C/20,000 m or

        w = 2.0 m, whichever is the lesser.

        The minimum value of w = 1.0 m
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
    Figure 2--Oil fuel tank boundary lines for the purpose of 
paragraphs 7 and 8

    9  Lines of oil fuel piping located at a distance from the ship's 
bottom of less than h, as defined in paragraph 6, or from the ship's 
side less than w, as defined in paragraphs 7 and 8 shall be fitted with 
valves or similar closing devices within or immediately adjacent to the 
oil fuel tank. These valves shall be capable of being brought into 
operation from a readily accessible enclosed space the location of 
which is accessible from the navigation bridge or propulsion machinery 
control position without traversing exposed freeboard or superstructure 
decks. The valves shall close in case of remote control system failure 
(fail in a closed position) and shall be kept closed at sea at any time 
when the tank contains oil fuel except that they may be opened during 
oil fuel transfer operations.
    10  Suction wells in oil fuel tanks may protrude into the double 
bottom below the boundary line defined by the distance h provided that 
such wells are as small as practicable and the distance between the 
well bottom and the bottom shell plating is not less than 0.5 h.
    11  Alternatively to paragraphs 6 and either 7 or 8, ships shall 
comply with the accidental oil fuel outflow performance standard 
specified below:

        .1  The level of protection against oil fuel pollution in the 
        event of collision or grounding shall be assessed on the basis 
        of the mean oil outflow parameter as follows:


                         OM < 0.0157-1.14E-6.C    600 m\3\  C < 5,000
                                                   m\3\

                         OM < 0.010               C  5,000 m\3\




                         Where                    OM = mean oil outflow
                                                   parameter;
                         .......................  C   = total oil fuel
                                                   volume.



        .2  The following general assumption shall apply when 
        calculating the mean oil outflow parameter:

                .1  the ship shall be assumed loaded to the partial 
                load line draught d<INF>P</INF> without trim or heel;

                .2  all oil fuel tanks shall be assumed loaded to 98 
                percent of their volumetric capacity;

                .3  the nominal density of the oil fuel (r<INF>n</INF>) 
                shall generally be taken as 1,000 kg/m\3\. If the 
                density of the oil fuel is specifically restricted to a 
                lesser value, the lesser value may be applied; and

                .4  for the purpose of these outflow calculations, the 
                permeability of each oil fuel tank shall be taken as 
                0.99, unless proven otherwise.

        .3  The following assumptions shall be used when combining the 
        oil outflow parameters:

                .1  The mean oil outflow shall be calculated 
                independently for side damage and for bottom damage and 
                then combined into a non-dimensional oil outflow 
                parameter OM, as follows:

                        O<INF>M</INF> = (0.4 O<INF>MS</INF> + 0.6 
                        O<INF>MB</INF>)/C

                        where:

                                O<INF>MS</INF> = mean outflow for side 
                                damage, in m\3\
                                O<INF>MB</INF> = mean outflow for 
                                bottom damage, in m\3\
                                C     = total oil fuel volume.

                .2  For bottom damage, independent calculations for 
                mean outflow shall be done for 0 m and 2.5 m tide 
                conditions, and then combined as follows:

                                O<INF>MB</INF> = 0.7 O<INF>MB(0)</INF> 
                                + 0.3 O<INF>MB(2.5)</INF>

                        where:

                                O<INF>MB(0)</INF> = mean outflow for 0 
                                m tide condition, and
                                O<INF>MB(2.5)</INF> = mean outflow for 
                                minus 2.5 m tide condition, in m\3\.

        .4  The mean outflow for side damage OMS shall be calculated as 
        follows:
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        

                        where:


                   i                       =       represents each oil
                                                    fuel tank under
                                                    consideration;
                   n                       =       total number of oil
                                                    fuel tanks;
                   PS(i)                   =       the probability of
                                                    penetrating oil fuel
                                                    tank i from side
                                                    damage, calculated
                                                    in accordance with
                                                    paragraph 11.6 of
                                                    this regulation;
                   OS(i)                   =       the outflow, in m\3\,
                                                    from side damage to
                                                    oil fuel tank i,
                                                    which is assumed
                                                    equal to the total
                                                    volume in oil fuel
                                                    tank i at 98 percent
                                                    filling.



        .5  The mean outflow for bottom damage shall be calculated for 
        each tidal condition as follows:

        .1  
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        

                        where:


                   i                     =       represents each oil
                                                  fuel tank under
                                                  consideration;
                   n                     =       total number of oil
                                                  fuel tanks;
                   PB(i)                 =       the probability of
                                                  penetrating oil fuel
                                                  tank i from bottom
                                                  damage, calculated in
                                                  accordance with
                                                  paragraph 11.7 of this
                                                  regulation;
                   OB(i)                 =       the outflow from oil
                                                  fuel tank i, in m\3\,
                                                  calculated in
                                                  accordance with
                                                  paragraph 11. 5.3 of
                                                  this regulation; and
                   CDB(i)                =       factor to account for
                                                  oil capture as defined
                                                  in paragraph 11.5.4.



        .2  
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
                        where:


                   i, n, PB(i) and        =       as defined in
                    CDB(i)                         subparagraph .1 above
                   OB(i)                  =       the outflow from oil
                                                   fuel tank i, in m\3\,
                                                   after tidal change.



        .3  The oil outflow O<INF>B(i)</INF> for each oil fuel tank 
        shall be calculated based on pressure balance principles, in 
        accordance with the following assumptions:

                .1  The ship shall be assumed stranded with zero trim 
                and heel, with the stranded draught prior to tidal 
                change equal to the partial load line draught 
                d<INF>P</INF>.

                .2  The oil fuel level after damage shall be calculated 
                as follows:

                        h<INF>F</INF> = ((d<INF>P</INF> + 
                        t<INF>C</INF>-Z<INF>l</INF>)(r<INF>S</INF>))/
                        r<INF>n</INF>

                        where:


                   hF                     =       the height of the oil
                                                   fuel surface above
                                                   Zl, in m;
                   tC                     =       the tidal change, in
                                                   m. Reductions in tide
                                                   shall be expressed as
                                                   negative values;
                   Zl                     =       the height of the
                                                   lowest point in the
                                                   oil fuel tank above
                                                   the baseline, in m;
                   rS                     =       density of seawater,
                                                   to be taken as 1,025
                                                   kg/m\3\; and,
                   rn                     =       nominal density of the
                                                   oil fuel, as defined
                                                   in 11.2.3.



                .3  The oil outflow O<INF>B(i)</INF> for any tank 
                bounding the bottom shell plating shall be taken not 
                less than the following formula, but no more than the 
                tank capacity:

                        O<INF>B(i)</INF> = H<INF>W</INF> <SUP>.</SUP> A

                        where:


                   HW                   =       1.0 m, when YB = 0
                   HW                   =       BB/50 but not greater
                                                 than 0.4 m, when YB is
                                                 greater than BB/5 or
                                                 11.5 m, whichever is
                                                 less
                   ``HW'' is to be measured upwards from the midship
                    flat bottom line. In the turn of the bilge area and
                    at locations without a clearly defined turn of the
                    bilge, HW is to be measured from a line parallel to
                    the midship flat bottom, as shown for distance ``h''
                    in Figure 1.



                        For Y<INF>B</INF> values outboard 
                        B<INF>B</INF>/5 or 11.5 m, whichever is less, 
                        H<INF>W</INF> is to be linearly interpolated.


                   YB                   =       the minimum value of YB
                                                 over the length of the
                                                 oil fuel tank, where at
                                                 any given location, YB
                                                 is the transverse
                                                 distance between the
                                                 side shell at waterline
                                                 dB and the tank at or
                                                 below waterline dB.
                   A                    =       the maximum horizontal
                                                 projected area of the
                                                 oil fuel tank up to the
                                                 level of HW from the
                                                 bottom of the tank.


                                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                                 
    Figure 3--Dimensions for calculation of the minimum oil outflow for 
the purpose of subparagraph 11.5.3.3

                .4  In the case of bottom damage, a portion from the 
                outflow from an oil fuel tank may be captured by non-
                oil compartments. This effect is approximated by 
                application of the factor C<INF>DB(i)</INF> for each 
                tank, which shall be taken as follows:


                   CDB(i)               =       0.6 for oil fuel tanks
                                                 bounded from below by
                                                 non-oil compartments;
                   CDB(i)               =       1 otherwise.


        .6  The probability P<INF>S</INF> of breaching a compartment 
        from side damage shall be calculated as follows:

                .1  P<INF>S</INF> = P<INF>SL</INF> <SUP>.</SUP> 
                P<INF>SV</INF> <SUP>.</SUP> P<INF>ST</INF>

                        where:


                 PSL                   =       (1-PSf-PSa) = probability
                                                the damage will extend
                                                into the longitudinal
                                                zone bounded by Xa and
                                                Xf;
                 PSV                   =       (1-PSu-PSl) = probability
                                                the damage will extend
                                                into the vertical zone
                                                bounded by Zl and Zu;
                 PST                   =       (1-PSy) = probability the
                                                damage will extend
                                                transversely beyond the
                                                boundary defined by y;



                .2  P<INF>Sa</INF>, P<INF>Sf</INF>, P<INF>Su</INF> and 
                P<INF>Sl</INF> shall be determined by linear 
                interpolation from the table of probabilities for side 
                damage provided in 11.6.3, and P<INF>Sy</INF> shall be 
                calculated from the formulas provided in 11.6.3, where:


                   PSa                  =       the probability the
                                                 damage will lie
                                                 entirely aft of
                                                 location Xa/L;
                   PSf                  =       the probability the
                                                 damage will lie
                                                 entirely forward of
                                                 location Xf/L;
                   PSl                  =       probability the damage
                                                 will lie entirely below
                                                 the tank;
                   PSu                  =       probability the damage
                                                 will lie entirely above
                                                 the tank; and
                   PSy                  =       probability the damage
                                                 will lie entirely
                                                 outboard the tank.



                        Compartment boundaries X<INF>a</INF>, 
                        X<INF>f</INF>, Z<INF>l</INF>, Z<INF>u</INF> and 
                        y shall be developed as follows:


                   Xa                   =       the longitudinal
                                                 distance from aft
                                                 terminal of L to the
                                                 aft most point on the
                                                 compartment being
                                                 considered, in m;
                   Xf                   =       the longitudinal
                                                 distance from aft
                                                 terminal of L to the
                                                 foremost point on the
                                                 compartment being
                                                 considered, in m;
                   Zl                   =       the vertical distance
                                                 from the moulded
                                                 baseline to the lowest
                                                 point on the
                                                 compartment being
                                                 considered, in m. Where
                                                 Zl is greater than DS,
                                                 Zl shall be taken as
                                                 DS;
                   Zu                   =       the vertical distance
                                                 from the moulded
                                                 baseline to the highest
                                                 point on the
                                                 compartment being
                                                 considered, in m. Where
                                                 Zu is greater than DS,
                                                 Zu shall be taken as
                                                 DS; and,
                   y                    =       the minimum horizontal
                                                 distance measured at
                                                 right angles to the
                                                 centreline between the
                                                 compartment under
                                                 consideration and the
                                                 side shell, in m.\1\


                        In way of the turn of the bilge, y need not to 
                        be considered below a distance h above 
                        baseline, where h is lesser of B/10, 3 m or the 
                        top of the tank.
---------------------------------------------------------------------------
    \1\ For symmetrical tank arrangements, damages are considered for 
one side of the ship only, in which case all ``y'' dimensions are to be 
measured from that side. For asymmetrical arrangements reference is 
made to the Explanatory Notes on matters related to the accidental oil 
outflow performance, adopted by the Organization by resolution 
MEPC.122(52).

        .3  Table of Probabilities for side damage

------------------------------------------------------------------------
   Xa/L      PSa      Xf/L      PSf     Zl/DS      PSl     Zu/DS    PSu
------------------------------------------------------------------------
   0,00    0,000      0,00    0,967      0,00    0,000     0,00    0,968
   0,05    0,023      0,05    0,917      0,05    0,000     0,05    0,952
   0,10    0,068      0,10    0,867      0,10    0,001     0,10    0,931
   0,15    0,117      0,15    0,817      0,15    0,003     0,15    0,905
   0,20    0,167      0,20    0,767      0,20    0,007     0,20    0,873
   0,25    0,217      0,25    0,717      0,25    0,013     0,25    0,836
   0,30    0,267      0,30    0,667      0,30    0,021     0,30    0,789
   0,35    0,317      0,35    0,617      0,35    0,034     0,35    0,733
   0,40    0,367      0,40    0,567      0,40    0,055     0,40    0,670
   0,45    0,417      0,45    0,517      0,45    0,085     0,45    0,599
   0,50    0,467      0,50    0,467      0,50    0,123     0,50    0,525
   0,55    0,517      0,55    0,417      0,55    0,172     0,55    0,452
   0,60    0,567      0,60    0,367      0,60    0,226     0,60    0,383
   0,65    0,617      0,65    0,317      0,65    0,285     0,65    0,317
   0,70    0,667      0,70    0,267      0,70    0,347     0,70    0,255
   0,75    0,717      0,75    0,217      0,75    0,413     0,75    0,197
   0,80    0,767      0,80    0,167      0,80    0,482     0,80    0,143
   0,85    0,817      0,85    0,117      0,85    0,553     0,85    0,092
   0,90    0,867      0,90    0,068      0,90    0,626     0,90    0,046
   0,95    0,917      0,95    0,023      0,95    0,700     0,95    0,013
   1,00    0,967      1,00    0,000      1,00    0,775     1,00    0,000
------------------------------------------------------------------------


                        P<INF>Sy</INF> shall be calculated as follows:


               PSy                 =       (24.96-199.6 y/  for y/BS
                                            BS) (y/BS)       0.05
               PSy                 =       0.749 + (5-44.4  for 0.05 < y/
                                            (y/BS-0.05))     BS < 0.1
                                            ((y/BS)-0.05)
               PSy                 =       0.888 + 0.56 (y/ for y/BS
                                            BS-0.1)          0.1


                        P<INF>Sy</INF> is not to be taken greater than 
                        1.
        .7  The probability P<INF>B</INF> of breaching a compartment 
        from bottom damage shall be calculated as follows:

                .1  P<INF>B</INF> = P<INF>BL</INF> <SUP>.</SUP> 
                P<INF>BT</INF> <SUP>.</SUP> P<INF>BV</INF>

                        where:


                 PBL                   =       (1-PBf-PBa) = probability
                                                the damage will extend
                                                into the longitudinal
                                                zone bounded by Xa and
                                                Xf;
                 PBT                   =       (1-PBp-PBs) = probability
                                                the damage will extend
                                                into transverse zone
                                                bounded by Yp and Ys;
                                                and
                 PBV                   =       (1-PBz) = probability the
                                                damage will extend
                                                vertically above the
                                                boundary defined by z;



                .2  P<INF>Ba</INF>, P<INF>Bf</INF>, P<INF>Bp</INF> and 
                P<INF>Bs</INF> shall be determined by linear 
                interpolation from the table of probabilities for 
                bottom damage provided in 11.7.3, and PBz shall be 
                calculated from the formulas provided in 11.7.3, where:


                   PBa                  =       the probability the
                                                 damage will lie
                                                 entirely aft of
                                                 location Xa/L;
                   PBf                  =       the probability the
                                                 damage will lie
                                                 entirely forward of
                                                 location Xf/L;
                   PBp                  =       probability the damage
                                                 will lie entirely to
                                                 port of the tank;
                   PBs                  =       probability the damage
                                                 will lie entirely to
                                                 starboard the tank; and
                   PBz                  =       probability the damage
                                                 will lie entirely below
                                                 the tank.



                        Compartment boundaries X<INF>a</INF>, 
                        X<INF>f</INF>, Y<INF>p</INF>, Y<INF>S</INF> and 
                        z shall be developed as follows:

    X<INF>a</INF> and X<INF>f</INF> as defined in 11.6.2;


                   Yp                   =       the transverse distance
                                                 from the port-most
                                                 point on the
                                                 compartment located at
                                                 or below the waterline
                                                 dB, to a vertical plane
                                                 located BB/2 to
                                                 starboard of the ship's
                                                 centreline;
                   YS                   =       the transverse distance
                                                 from the starboard-most
                                                 point on the
                                                 compartment located at
                                                 or below the waterline
                                                 dB, to a vertical plane
                                                 located BB/2 to
                                                 starboard of the ship's
                                                 centreline; and
                   z                    =       the minimum value of z
                                                 over the length of the
                                                 compartment, where, at
                                                 any given longitudinal
                                                 location, z is the
                                                 vertical distance from
                                                 the lower point of the
                                                 bottom shell at that
                                                 longitudinal location
                                                 to the lower point of
                                                 the compartment at that
                                                 longitudinal location.


        .3  Table of probabilities for bottom damage

------------------------------------------------------------------------
   Xa/L      PBa      Xf/L      PBf     Yp/BB      PBp     Ys/BB    PBs
------------------------------------------------------------------------
   0,00    0,000      0,00    0,969      0,00    0,844     0,00    0,000
   0,05    0,002      0,05    0,953      0,05    0,794     0,05    0,009
   0,10    0,008      0,10    0,936      0,10    0,744     0,10    0,032
   0,15    0,017      0,15    0,916      0,15    0,694     0,15    0,063
   0,20    0,029      0,20    0,894      0,20    0,644     0,20    0,097
   0,25    0,042      0,25    0,870      0,25    0,594     0,25    0,133
   0,30    0,058      0,30    0,842      0,30    0,544     0,30    0,171
   0,35    0,076      0,35    0,810      0,35    0,494     0,35    0,211
   0,40    0,096      0,40    0,775      0,40    0,444     0,40    0,253
   0,45    0,119      0,45    0,734      0,45    0,394     0,45    0,297
   0,50    0,143      0,50    0,687      0,50    0,344     0,50    0,344
   0,55    0,171      0,55    0,630      0,55    0,297     0,55    0,394
   0,60    0,203      0,60    0,563      0,60    0,253     0,60    0,444
   0,65    0,242      0,65    0,489      0,65    0,211     0,65    0,494
   0,70    0,289      0,70    0,413      0,70    0,171     0,70    0,544
   0,75    0,344      0,75    0,333      0,75    0,133     0,75    0,594
   0,80    0,409      0,80    0,252      0,80    0,097     0,80    0,644
   0,85    0,482      0,85    0,170      0,85    0,063     0,85    0,694
   0,90    0,565      0,90    0,089      0,90    0,032     0,90    0,744
   0,95    0,658      0,95    0,026      0,95    0,009     0,95    0,794
   1,00    0,761      1,00    0,000      1,00    0,000     1,00    0,844
------------------------------------------------------------------------


                        P<INF>Bz</INF> shall be calculated as follows:


                PBz                 =       (14.5-67 z/    for z/DS  0.1
                                             DS) (z/DS)
                PBz                 =       0.78 + 1.1     for z/DS >
                                             ((z/DS -       0.1
                                             0.1))


                        P<INF>Bz</INF> is not to be taken greater than 
                        1.
                .8  For the purpose of maintenance and inspection, any 
                oil fuel tanks that do not border the outer shell 
                plating shall be located no closer to the bottom shell 
                plating than the minimum value of h in paragraph 6 and 
                no closer to the side shell plating than the applicable 
                minimum value of w in paragraph 7 or 8.
    12  In approving the design and construction of ships to be built 
in accordance with this regulation, Administrations shall have due 
regard to the general safety aspects, including the need for 
maintenance and inspection of wing and double bottom tanks or spaces.''
3  Consequential amendments to the Supplement of the IOPP Certificate 
        (Forms A and B)
    The following new paragraph 2A is added to the Supplement of the 
IOPP Certificate (Forms A and B):

        ``2A.1  The ship is required to be constructed according to 
        regulation 12A and complies with the requirements of:

                paragraphs 6 and either 7 or 8 (double hull 
                construction)      


                paragraph 11 (accidental oil fuel outflow performance).  
                      


        2A.2  The ship is not required to comply with the requirements 
        of regulation 12A.                
        ''
4  Amendments to regulation 21
    The text of existing paragraph 2.2 of regulation 21 on Prevention 
of oil pollution from oil tankers carrying heavy grade oil as cargo is 
replaced by the following:

        ``oils, other than crude oils, having either a density at 15 +C 
        higher than 900 kg/m\3\ or a kinematic viscosity at 50 +C 
        higher than 180 mm\2\/s; or''

    Senator Lautenberg. Thank you very much. Thank all of you.
    I want to ask Mr. Kirchner--what's the process of becoming 
a State pilot?
    Mr. Kirchner. Each state has its own system for selecting 
people to become trainees to become a state pilot. I can 
describe the situation in New Jersey as a representative 
example.
    The system in New Jersey is conducted and administered by 
the New Jersey Pilot Commission. That's 6 individuals who are 
appointed by the Governor, all of whom are required to have 
some kind of a maritime background. None of whom are allowed to 
have any connection or interest in a pilotage operation.
    Every 2 years, they advertise in trade publications, they 
go to the maritime schools, and they solicit applications. 
Those applications are received, they're reviewed to make sure 
that the individuals comply with the prerequisites for the 
system----
    Senator Lautenberg. Thanks--I just wanted to get an outline 
of the fact that states have their own organizations, because 
in our harbor, and harbors in New Jersey, the Sandy Hook Pilots 
Association, and I don't know whether they are represented by 
the 6 people who are appointed by the State of New Jersey.
    Mr. Kirchner. Right.
    Senator Lautenberg. Are the waters covered, are there 
overlapping organizations? Is there a New Jersey Pilots 
Association, Sandy Hook, and New York Pilots Association?
    Mr. Kirchner. In the Port of New York, there is a New York 
Pilot Commission, and a New Jersey Pilot Commission. There is a 
New York/Sandy Hook Pilot Association, and a New Jersey/Sandy 
Hook Pilot Association--they work together. The two pilot 
associations work out of the same office, and so the pilotage 
there is shared between the two states.
    Senator Lautenberg. And so it's just one after the other? 
Because the waters are--awfully close in those harbors, and I'm 
just curious as to who makes the decision, and these are 
private organizations, is this right?
    Mr. Kirchner. Right, Senator.
    The two associations maintain a joint rotation system, so 
whichever pilot is first on-turn when a ship arrives--whether 
it's a New York or a New Jersey pilot--will handle that ship, 
no matter where it goes in the Port of New York.
    Senator Lautenberg. Because I'm an Honorary Pilot Member of 
the Sandy Hook Pilots Association.
    Mr. Kirchner. That's what I understand.
    Senator Lautenberg. And so far, I haven't gotten my call.
    [Laughter.]
    Senator Lautenberg. But I want to ask you this about the 
license that was surrendered to the Coast Guard. This was the 
pilot from the COSCO BUSAN. He surrendered his license, the 
action was taken in response to a notification from the Coast 
Guard that it determined he's not medically fit for the duties 
of a pilot, based on information that he previously disclosed, 
in connection with the Coast Guard's normal medical review 
program for pilots and other mariners.
    Now, why would the Coast Guard issue a license to someone 
unqualified? Do you have an answer?
    Mr. Kirchner. Senator, I don't know. He disclosed his 
medical conditions. The Coast Guard has told me that what it 
was looking at to make the determination in December was 
information that it had had for a number of years. So, because 
of changes in the process, I guess they caught whatever it is 
they felt was a problem, which they were not able to catch 
earlier.
    But, I don't know exactly what the medical condition is 
that's the basis for that action.
    Senator Lautenberg. No, but how can we improve the process 
by which pilots are licensed by the Coast Guard?
    Mr. Kirchner. Well, with the medical review program, as the 
Commandant said, that's undergoing a complete top to bottom 
revision, we've been working, and the rest of the maritime 
community has been working, with the Coast Guard to try and 
develop a process that makes sense, that gives the Coast Guard 
the information they need, but also is a program that the Coast 
Guard has the resources to administer. And that's the real 
challenge there.
    Senator Lautenberg. So, will the Coast Guard have final 
say--regardless of which pilot association it is--to approve or 
veto an application, in your judgment?
    Mr. Kirchner. Of the pilot's Federal license, yes, Senator.
    Senator Lautenberg. Yes.
    Dr. Tikka, are current ship designs adequate to protect 
against fuel oil spills? Or do we have to move to a new 
international standard to protects ourselves?
    Dr. Tikka. Well, the international standard that has been 
adopted by IMO provides additional protection to the fuel oil 
tanks, so it is a change to the current design requirements. 
Whether the current designs are adequate or not, that really is 
more of a policy question than a design question.
    Senator Lautenberg. Well, how quickly are other countries 
moving to a standard that requires this protective layer, 
double hull, around their fuel tanks?
    Dr. Tikka. Well, the international--the IMO Requirement 12A 
is applicable to vessels with a contract signed on or after 1 
August 2007 or for vessels that are delivered after 1 August 
2010. So, this is the time schedule that the member States of 
the IMO are subject to.
    Senator Lautenberg. You heard me raise the question about 
stability--if the fuel tanks are on the upper level of the 
vessel, are there any stability issues? Or what weight offset 
do they have to put into other areas of the vessel?
    Dr. Tikka. Right, if the fuel oil tanks are at the, say, in 
the upper wing tanks or in deep tanks, it has to be taken into 
account in the design of the vessel from the stability point of 
view, but it's nothing that could not be handled from a design 
point of view.
    Senator Lautenberg. From a design point of view.
    Dr. Tikka. And operational point of view, if I may add.
    Senator Lautenberg. I just wonder whether the use of 
ballast, or otherwise, is needed to offset these?
    Dr. Tikka. Mr. Chairman, that depends on the vessel type. 
On container ships, if--again, depending on the size of the 
container ships, it will probably require some use of ballast 
to compensate for the higher center of gravity of the fuel oil 
tanks. But, it is a very design-specific question.
    Senator Lautenberg. Captain Page, what fees do you charge 
to the private sector to subscribe to your VTS?
    Captain Page. There's a variety of rates there, Mr. 
Chairman. In some cases, vessels pay the equivalent of a latte 
a day, or $3 a day, to track anywhere in the world, every few 
hours. And that would also include AIS data when they come 
closer to shore.
    In some cases, it may be a port that needs to see all of 
the vessels, and they might pay $100 a month. The Coast Guard 
even pays, in some areas, for access to our system, so they can 
see vessels. Because about 50 percent of our sites around the 
country have coverage that the Coast Guard doesn't.
    So, there's a variety of pricing schemes, depending on how 
many people use it, much like a cable TV service--how many 
people are going to see it. And ultimately, we're all non-
profit maritime organizations, we're just trying to cover our 
operating costs, and make it fair that those who use it the 
most, pay a higher percentage.
    Senator Lautenberg. Tell me something, would the average 
speed of a ship--if you go out 2,000 miles, you're talking 
about a fair amount of time before that ship hits our waters, 
or comes into our ports and harbors--what's the value there?
    Captain Page. Well, Mr. Chairman, we use this right now, 
for instance, on tankers and cruise ships and ferries, no 
matter where they are--if there's a situation that they might 
get in distress, you can quickly find them, and other vessels 
that can render assistance.
    We can also see anomalies in vessels' transits. If a vessel 
is disabled, such as the SELENDANG AYU, off the coast of 
Alaska, that elected to wait about 24 hours before they called 
the Coast Guard and said they were in trouble--which was too 
late. In this case, led to the vessel running aground, and a 
helicopter crashing in the process of rescue, and what have 
you.
    So, it gives you early notification of a problem waiting--
--
    Senator Lautenberg. OK.
    Captain Page. Instead of waiting to extremis.
    Senator Lautenberg. It sounds like a great idea, but I was 
just trying to figure out what value there is to be sizing up a 
ship that might be 5 days off the coast. But it's certainly 
good and you can see emergencies, et cetera.
    Captain Page. It also has security connotations. We can 
tell--we can see a vessel's voyage for the last year, we can 
tell you which ports they called on, to see if it's a port 
we're concerned with, and we also can see if there's any 
anomalies in transit from the Far East--was it really their 
last port of call since Singapore? Or did they stop somewhere 
else? Or did they stop in the ocean for a couple of days? So, 
it really validates that the vessel coming to our shores has a 
unremarkable voyage.
    Senator Lautenberg. So, but that's data that is available 
to anyone operating a system, it would not just be the United 
States, it could be the U.K. in the same distance, when we're 
talking about 2,000 miles.
    Captain Page. It depends which system your using. Right 
now----
    Senator Lautenberg. General----
    Captain Page. Sir.
    Senator Lautenberg. General information that's using.
    Thanks very much.
    We're joined by Senator Klobuchar. Now, her sea is an 
important body of water, but it's much too big to be called a 
lake, I think.

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. I think so, you can't see across it.
    Thank you, Chairman Lautenberg.
    Well, what he didn't tell you, on another Subcommittee I'm 
on, the Oceans Subcommittee, when I went to my first meeting--
OK, maybe it wasn't my first choice--but I went to the first 
meeting and I looked around the room, and I saw Olympia Snowe, 
and Trent Lott and John Kerry, and I wrote a note, actually, it 
was one of my first weeks on the job, to Senator Lautenberg, 
and I said, ``Everyone on this Subcommittee has an ocean, 
except me.''
    And Senator Lautenberg wrote back and said, ``Well, next 
year, just come back and ask for one.''
    [Laughter.]
    Senator Klobuchar. But in any case, I actually have been 
pleasantly surprised to find out that the Oceans Subcommittee--
which we're not on today--covers the Great Lakes. And so, I've 
become the voice of the Great Lakes on the Committee.
    And I just wanted to thank you all for coming today, as 
many of my colleagues have alluded to, we are almost 20 years 
removed from the EXXON VALDEZ oil spill that irreparably harmed 
the pristine environment in the Prince William Sound, but 2 
decades later, that incident still is very much with us--
whether it's with the environmental repercussions or with the 
legal case that's still pending, which actually, the fishermen 
were represented by a Minnesota law firm, so we hear about it 
more than you would think in Minnesota.
    And I'm pleased that the Coast Guard is in the process of 
developing new strategies, I met with the Admiral yesterday, to 
minimize the frequency and environmental fallout from oil 
spills of non-tanker vessels. But, I think that Congressional 
action may be necessary to build upon the successful maritime 
safety legislation passed in the last 20 years.
    And, again, from a Minnesota standpoint, the dangers are 
not isolated to oceans. While the Great Lakes have been 
fortunate to escape a significant spill, a large cargo ship run 
aground could wreak havoc on the contained environment of the 
Great Lakes. And so, my interest from a state point of view 
lies with that.
    Mr. Kirchner, I heard about half of your testimony, I had 
another meeting, and I wanted to commend the American Pilots' 
Association for its role in promoting maritime safety.
    But there was one issue in your written testimony--that I 
wanted to explore more, where you discuss the proposals that 
would require pilots to carry aboard portable piloting units, 
laptop computers that provide electronic navigation programs.
    I think in your testimony--I don't want to misstate it--but 
you said you don't want those requirements, because you think 
the portable piloting units should be voluntary. Among the 
reason you cite are that the units may not be necessary, or 
provide any benefits, and that there could be problems.
    And I understand, clearly, that the piloting is a human 
task. But I wondered why we wouldn't be doing everything we can 
to promote the use of technologically-assisted instruments.
    So, could you talk about what your views are on this and 
why you wouldn't see that as something we should require?
    Mr. Kirchner. The use of portable piloting equipment is a 
very important program that's been under development for the 
last 20 years in the U.S. We are strong believers in the value 
of those, but they're not for every place. There are some types 
of piloting assignments, and some type of operations where they 
wouldn't help, and in fact, they could be a distraction, they 
could create a problem.
    So, it's really up to the local pilotage authorities, 
working with the pilots, to make that determination on a local 
level. And even where portable units are used, they are much 
different from one place to the other. The pilot units that are 
used on the Columbia River in Oregon, for example, are much 
different than the ones that are used on the Delaware River.
    So, we are wary of a national or a Federal standard or some 
type of a national program that would not be able to take into 
account the local variations.
    Senator Klobuchar. And now, if you don't support a mandate, 
do you think there are other initiatives that you'd support to 
try to encourage the use of the these kind of units?
    Mr. Kirchner. Well, we mentioned, it's important to have 
the AIS and DGPS infrastructure maintained. The units rely on 
those items, and that would be a big help.
    Units are used by our pilots in the Great Lakes, for 
example, and frankly, we had some difficulty getting the Coast 
Guard to accept them, or to recognize them, and to include the 
costs in the rate base.
    So, anyplace--well, all pilotage fees are regulated--so 
that we would encourage all of the entities that regulate the 
rates to include money in the rates to pay for the units.
    Senator Klobuchar. OK.
    You've also spoken strongly in favor of maintaining the 
system of State regulation of pilot certification and 
licensing. The Federal pilot license is currently the bare 
minimum standard, and would you support efforts to increase the 
Federal standards for a pilot license, while not infringing on 
the individual states' authority?
    Mr. Kirchner. I can't imagine a particular type of increase 
or raising of standards that we would oppose.
    Senator Klobuchar. OK, thank you.
    Doctor, Senator Lautenberg talked to you about the 
technology with the ships and I know that the double-hull 
technology has proven effective in reducing oil spills by 
tankers, and should produce similar results for non-tankers.
    Do you believe that this is the final solution for 
minimizing the incidents of oil spills? Or do you think that 
there is other ship technology changes that would reduce oil 
spills even further?
    Dr. Tikka. That's a difficult question to answer. Well, we 
all--certainly we always hope that there is progress in 
technology that further improves the performance of the 
vessels. So, I wouldn't like to rule these new regulations to 
be the final say.
    But, immediately doesn't--nothing comes to mind that I 
would say that there is some development ongoing from a design 
point of view that would increase the environmental performance 
of tankers, but of course there are a lot of, also, operational 
aspects that have to be considered from an environmental 
performance point of view.
    Senator Klobuchar. Captain Page, speaking of technology, 
the Marine Exchange's use of the Vessel Traffic Services and 
Automatic Identification System shows how technology can help 
with maritime safety. Do you believe we should be doing more to 
promote the use of that technology, to help manage busy ports 
and harbors, and do you believe the Coast Guard should assume a 
greater responsibility for managing shipping traffic?
    Captain Page. Well, I do believe that we need to move 
further on the application of technology. You could look at 
some areas around the country where they push very, very hard 
these technologies as a force multiplier to improve maritime 
safety, and it's used by pilots to get a virtual bridge team, 
in some areas, where they add another person, virtually, on the 
bridge during fog conditions, what have you.
    So, I think the marine industry has a big role in that, and 
I think that the Coast Guard needs to foster, and promote, and 
work closely with the maritime industry, and take advantage of 
these existing technologies, and promote them further. It's one 
of the several pieces that need to be done. Certainly, there's 
the design aspect of ships, there's a human factor--the 
pilots--and then there's a technological solution. And all 
three of those need to be moving forward, I believe, if we want 
to reduce risk of oil spills and other disasters.
    Senator Klobuchar. Thank you.
    Do any of the other two of you have anything more you want 
to add in answer to my questions? I'll give you that 
opportunity.
    [No response.]
    Senator Klobuchar. All right. Thank you very much.
    Senator Lautenberg. And with that, I call the meeting of 
this Subcommittee to a close, and I note that the record will 
be open for 5 days so that other Members may submit questions 
for any of you that have appeared this day.
    Thank you for your excellent testimony and patience in our 
getting to you, but we're glad to see you.
    Captain Page. Thank you, sir.
    Dr. Tikka. Thank you.
    [Whereupon, at 3:50 p.m., the hearing was adjourned.]

                            A P P E N D I X

    Response to Written Question Submitted by Hon. Barbara Boxer to 
                         Admiral Thad W. Allen

    Question. The new draft rules for tug escort of tankers reduces by 
97 percent the number of days of training required for operators. How 
does this comport with the Coast Guard's promise to strengthen oil 
spill prevention measures, especially in low-visibility situations? Why 
is Coast Guard considering rulemaking to cut the training for tugboat 
pilots from 30 months to 30 days?
    Answer. There has been no suggestion that the sea service required 
to obtain mate (pilot) of towing vessels should be reduced to 30 days, 
and the Coast Guard is not contemplating a reduction of the sea service 
for this license.
    The Notice of Proposed Rulemaking (NPRM) published on September 17, 
2007, proposes that in order to obtain a mate (pilot) of towing vessels 
license, the alternate progression candidate needs a total of 36 months 
of service as master of steam or motor vessels not more than (NMT) 200 
GRT, i.e., any tonnage master of steam or motor vessels license not 
exceeding 200 GRT. This is in addition to the sea service required to 
obtain the underlying master NMT 200 GRT license, which is at least 12-
36 months, depending on the specific type of NMT 200 GRT master license 
held. To obtain a mate (pilot) of towing vessels license under the 
proposed alternate progression, this represents a total of 4-6 years of 
sea service, at least 3 years of which must be as a master of a NMT 200 
GRT vessel, depending on the specific type of NMT 200 GRT master 
license held.
    Alternate progression candidates must also complete a Towing 
Officer Assessment Record (TOAR) or approved course in lieu of TOAR, 
pass an examination, and complete at least 30 days training and 
observation on towing vessels in order to obtain a mate (pilot) of 
towing vessels license.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
